<html>
<title> - STAKEHOLDER PERSPECTIVES ON REAUTHORIZATION OF THE EXPORT-IMPORT BANK OF THE UNITED STATES</title>
<body><pre>[Senate Hearing 112-294]
[From the U.S. Government Publishing Office]


                                                          S. Hrg. 112-294
 
 STAKEHOLDER PERSPECTIVES ON REAUTHORIZATION OF THE EXPORT-IMPORT BANK 

                          OF THE UNITED STATES

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON

              SECURITY AND INTERNATIONAL TRADE AND FINANCE

                                 of the

                              COMMITTEE ON 

                   BANKING,HOUSING,AND URBAN AFFAIRS

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

  EXAMINING STAKEHOLDER PERSPECTIVES ON REAUTHORIZATION OF THE EXPORT-
                    IMPORT BANK OF THE UNITED STATES

                               __________

                             JUNE 30, 2011

                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


                 Available at: http: //www.fdsys.gov /



                  U.S. GOVERNMENT PRINTING OFFICE
73-238                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                  TIM JOHNSON, South Dakota, Chairman

JACK REED, Rhode Island              RICHARD C. SHELBY, Alabama
CHARLES E. SCHUMER, New York         MIKE CRAPO, Idaho
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
DANIEL K. AKAKA, Hawaii              JIM DeMINT, South Carolina
SHERROD BROWN, Ohio                  DAVID VITTER, Louisiana
JON TESTER, Montana                  MIKE JOHANNS, Nebraska
HERB KOHL, Wisconsin                 PATRICK J. TOOMEY, Pennsylvania
MARK R. WARNER, Virginia             MARK KIRK, Illinois
JEFF MERKLEY, Oregon                 JERRY MORAN, Kansas
MICHAEL F. BENNET, Colorado          ROGER F. WICKER, Mississippi
KAY HAGAN, North Carolina

                     Dwight Fettig, Staff Director

              William D. Duhnke, Republican Staff Director

                       Dawn Ratliff, Chief Clerk

                     William Fields, Hearing Clerk

                      Shelvin Simmons, IT Director

                          Jim Crowell, Editor

                                 ______

      Subcommittee on Security and International Trade and Finance

                   MARK R. WARNER, Virginia, Chairman

           MIKE JOHANNS, Nebraska, Ranking Republican Member

SHERROD BROWN, Ohio                  MARK KIRK, Illinois
MICHAEL F. BENNET, Colorado
TIM JOHNSON, South Dakota

             Nathan Steinwald, Subcommittee Staff Director

        Sarah Novascone, Republican Subcommittee Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                        THURSDAY, JUNE 30, 2011

                                                                   Page


Opening statement of Chairman Warner.............................     1

Opening statements, comments, or prepared statements of:
    Senator Johanns..............................................     2
    Senator Bennet...............................................     3
    Senator Kirk
        Prepared statement.......................................    25

                               WITNESSES

Osvaldo Luis Gratacos, Inspector General, Export-Import Bank.....     5
    Prepared statement...........................................    25
    Responses to written questions of:
        Senator Shelby...........................................    37
Clay Thompson, Director, Global Government Affairs, Caterpillar, 
  Inc............................................................     6
    Prepared statement...........................................    28
Douglas Norlen, Policy Director, Pacific Environment.............     8
    Prepared statement...........................................    31
David Ickert, Vice President, Air Tractor, Inc., on behalf of the 
  Small Business Exporters Association...........................     9
    Prepared statement...........................................    33

              Additional Material Supplied for the Record

Statement submitted by Thea Mei Lee, Deputy Chief of Staff, 
  American Federation of Labor and Congress of Industrial 
  Organizations..................................................    42
Statement submitted by Owen E. Herrnstadt, Director, Trade and 
  Globalization, International Association of Machinists and
  Aerospace Workers..............................................    43
Joint statement submitted by American Apparel and Footwear 
  Association, National Cotton Council, and National Council of 
  Textile Organizations..........................................    45
Statement submitted by Air Transport Association of America, Inc.    47

                                 (iii)


 STAKEHOLDER PERSPECTIVES ON REAUTHORIZATION OF THE EXPORT-IMPORT BANK 
                          OF THE UNITED STATES

                              ----------                              


                        THURSDAY, JUNE 30, 2011

                                       U.S. Senate,
      Subcommittee on Security and International Trade and 
                                                   Finance,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.
    The Subcommittee met at 10:06 a.m., in room SD-538, Dirksen 
Senate Office Building, Hon. Mark Warner, Chairman of the 
Subcommittee, presiding.

          OPENING STATEMENT OF CHAIRMAN MARK R. WARNER

    Chairman Warner. Good morning, and I want to welcome 
everyone to this hearing of the Subcommittee on Security and 
International Trade and Finance, ``Stakeholder Perspectives on 
Reauthorization of the Export-Import Bank of the United 
States.'' I want to mention, as I was going down and 
introducing myself to the witnesses, a number of them said, 
``Hello, Mr. Chairman,'' and I realized that while I have had 
the chance to sit temporarily in this chair before, I have 
never been addressed that way since it seems not that long 
ago--it was not that long ago that I was the last seat on the 
dais down to the right, so I am anxious to--I look forward to 
chairing this hearing with my good friend, the Ranking Member, 
Senator Johanns, and we look forward to a productive morning.
    The hearing this morning adds to the oversight record of 
the full Banking Committee on the Export-Import Bank. Last 
month Chairman Johnson held a hearing in the full Committee 
with Chairman Hochberg of the Bank. The Senate also recently 
confirmed two of the Bank's Board members. Those hearings are 
important not just for the normal oversight of the Committee, 
but because of the Bank's authorization is set to expire on 
September 30th of this year. A new reauthorization must be 
signed into law before that date in order for the Bank to 
continue operating. That sounds strangely reminiscent of 
another issue which we have got a deadline fast approaching.
    This reauthorization will take place during a period that 
may be as important as any in the Bank's history. A core 
objective of the Bank is to support American jobs, and the 
President has outlined a national export initiative that seeks 
to double American exports within 5 years. This initiative 
could not come at a more critical time for job creation in this 
country. Although the United States remains the largest 
exporter in the world, it trails a number of countries in terms 
of trade as an percentage of GDP, and obviously we face 
increasingly sophisticated competition, especially at the high 
end of the value-added global supply chain. And it is 
remarkable to see countries like Brazil and China and their 
enormous export gains in the last few years and how some of 
their export support organizations compete with us.
    Obviously, this hearing and this reauthorization could not 
come at a more critical time as we talk about the Brazils and 
the Chinas and the emergence of the EU countries because other 
export credit assistance organizations around the world are, 
again, becoming more competitive.
    The financial sector, as we all know, is still recovering 
from the crisis of 2008, again, making the Bank's actions even 
more important. And some of the deals that Ex-Im supports, such 
as infrastructure and development in poorer countries, have 
never been the high-yield, low-risk deals that the finance 
sector would prefer. So, again, with the gaps in traditional 
financing, again, making the role that Eximbank plays more 
important.
    On top of that, as I mentioned earlier, Eximbank faces 
increasing competition from foreign export credit agencies. 
While the members of the G-7 and other countries submit to 
negotiated limits on credit assistance, developing economies 
such as China, Brazil, and India do not adhere to those 
limitations. In the face of this new form of competition, the 
Bank must have the resources and the flexibility to compete.
    However, these resources and any flexibility cannot come 
without heightened transparency and accountability, and we 
cannot expect the Bank to be more competitive without being 
more efficient.
    The Bank, like many agencies, has a reputation for being 
bureaucratic and slow. While current leadership has done work 
to address this issue, the reality at the Bank is we need to 
ask if more can be done. In order to become more competitive, 
Eximbank must become more efficient. We have to look at whether 
new metrics and accountability measures can make the Bank a 
more attractive and customer-friendly source of financing for 
America's exports and, as a result, help further the policy 
objective, including its core mission of supporting American 
jobs.
    There are a number of topics that I look forward to hearing 
from the panel on, and we will get to our witnesses in a 
moment, but I would like to turn it over to Senator Johanns, my 
friend and Ranking Member, for his opening comments. And it is 
great to see my colleague Senator Bennet here. I know he will 
have some lucid comments as well at the opening, and then I 
will introduce the witnesses, and we will go forward.
    Senator Johanns.

               STATEMENT OF SENATOR MIKE JOHANNS

    Senator Johanns. Well, let me start out and say thanks to 
the Chairman for holding the hearing today. As we can see from 
the deadline that is approaching, this is just an enormously 
important opportunity to look at what the Bank is doing.
    As a former Secretary of Agriculture, I witnessed firsthand 
in a very real way the value of strong export policy. But I 
know I speak for the Chair and for myself when I say we also 
witnessed the importance of strong export policy when we were 
Governors, when we first had an opportunity to work together.
    It is without question certainly that one element of a 
robust export system is a strong Export-Import Bank. When I 
traveled the globe working on various trade agreements, 
financing was always a key point. I always asked myself how our 
global trading partners were accessing capital. That is where 
the Export-Import Bank comes into play, and it is why the 
Bank's programs are so important.
    It is without question that the Bank plays an important 
role in supporting the export of American-made goods and 
American-provided services. This goes for large companies, but 
I also want to underscore that it needs to also apply for small 
ones, too.
    During the last reauthorization, many changes were made to 
improve the structure of the Bank, including economic impact 
procedures and enhanced small business efforts. It is my hope 
that we can build upon these previous changes and determine if 
there are additional reforms that the Committee should 
consider. Fundamentally, we are asking what is working and what 
is not.
    Because there are billions of potential global customers in 
both the emerging and the established markets for goods and 
services, we must ensure that we get them into consumers' hands 
across the globe. We must do all we can to make sure we have a 
robust marketplace for our goods in other parts of the world.
    Well, I look forward to hearing the testimony of the 
witnesses today and I look forward to working with my friend 
and colleague Senator Warner on a timely reauthorization.
    Chairman Warner. Thank you, Senator Johanns. And he does 
bring special expertise, a former Cabinet Secretary of 
Agriculture, and we had many opportunities to talk about export 
opportunities as Governors, and he is a great partner in this 
effort.
    Senator Bennet, do you have an opening statement?

             STATEMENT OF SENATOR MICHAEL F. BENNET

    Senator Bennet. I would just say, Mr. Chairman, thank you 
for holding the hearing. Thank you for your leadership of the 
Committee. There is a lot of concern in my State about how we 
are going to get this economy back on track and what we are 
going to do about the jobs that have been permanently lost in 
this recession.
    Every single month during the course of this recession, 
when we saw the job loss numbers, we also saw the productivity 
index rise. Firms were figuring out how to do what they were 
doing already with fewer people, and we have got to put folks 
back to work. And one of the critical ways of doing that is 
making sure that these export markets are as robust and as open 
as they can be for American goods and products.
    So the hearing is important. The work that the Bank does is 
critical to that, and I look forward to hearing the testimony.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Bennet. Again, I think 
we have all used the term, and I think probably the witnesses 
will reaffirm this, that 95 percent of all the future customers 
for American businesses are abroad, and this is the opportunity 
we have.
    Before I introduce our witnesses today, I would like to 
state that I have several statements from Bank constituencies 
who have asked that their comments be part of the record. If 
there is no objection, I will enter those into the record. 
Without objection. And, of course, the Committee will consider 
these statements in the work in the future, and the record will 
stay open after the hearing for other statements.
    Chairman Warner. I will now turn to our panel. We have four 
witnesses today, each with a different perspective on the Bank.
    The Honorable Osvaldo Luis Gratacos, Inspector General, 
Export-Import Bank of the United States. Mr. Gratacos and I 
apologize.
    Mr. Gratacos. You are more close than other people.
    [Laughter.]
    Chairman Warner. Mas o menos?
    Mr. Gratacos. Mas o menos.
    Chairman Warner. ----was sworn in as the second Inspector 
General of the Export-Import Bank of the United States on 
October 18, 2010. Mr. Gratacos had been serving as the Acting 
Inspector General since October 2009. Before his nomination, he 
served as Deputy Inspector General and Counsel to the Inspector 
General. Mr. Gratacos joined the Eximbank OIG from Motorola 
where he worked as a commercial counsel, and before joining 
Motorola he served as attorney adviser and as legal counsel to 
the Inspector General at USAID.
    Our next witness after that will be Mr. Clay Thompson, 
director of Global Government Affairs, Caterpillar. Clay 
Thompson joined Caterpillar in 1997 and from 1997 to 2005 held 
positions of increasing responsibility in Caterpillar's legal 
department. He left the legal department in January 2005 to 
become Caterpillar's emerging markets strategy integration 
manager--that is a mouthful--for Caterpillar China and in 
August 2007 was named managing director of product for 
Caterpillar's joint venture operations in Japan. In April 2009, 
Mr. Thompson returned to the United States to become director 
of Caterpillar's Corporate Government Affairs Department here 
in Washington. He currently serves as treasurer of the U.S.-
ASEAN Business Council and chairman of the Council of U.S.-
Indonesia Business Committee. Mr. Thompson, thank you for being 
here as well.
    Mr. Doug Norlen, policy director, Pacific Environment. Mr. 
Norlen is policy director for Pacific Environment, serving on 
staff since 1995. Mr. Norlen specializes in the reform of 
multilateral trade and finance institutions and bilateral 
export credit agencies, obviously ECAs. In 2000, Mr. Norlen was 
appointed by U.S. Secretary of Commerce Bill Daley and U.S. 
Trade Representative Charlene Barshefsky to be the first 
environmental representative to the USTR's Industry Sector 
Advisory Committee for Paper Products. Mr. Norlen, thank you 
for being here as well.
    Mr. David Ickert, Air Tractor Inc. on behalf of the Small 
Business Exporters Association. Mr. Ickert, vice president-
finance of Air Tractor Inc. of Olney, Texas. Air Tractor is a 
small business engaged in the manufacture of agriculture and 
forestry firefighting airplanes. The company has been in 
business since 1972 and is now 100 percent employee owned.
    We look forward to the testimony of everyone, and let me 
acknowledge at the front end that Senator Johanns has got to 
step out about 10:35 or so, so if we could try to--I know we 
give everybody 4 to 5 minutes and try to adhere to that, I 
would like to let Senator Johanns get a first round of 
questioning in before he has to step out.
    Mr. Gratacos, if you could start your testimony, and then 
we will go down the line. Thank you.

 STATEMENT OF OSVALDO LUIS GRATACOS, INSPECTOR GENERAL, EXPORT-
                          IMPORT BANK

    Mr. Gratacos. Thank you, Mr. Chairman, Ranking Member 
Johanns, and Senator Bennet. Thanks for the opportunity to 
testify in front of you today about Eximbank and the OIG and 
the challenges the Bank is facing. Before I continue, I would 
like to thank the Almighty for this opportunity, my family, and 
the members of the OIG staff.
    In my remarks I will provide a brief history of the Office 
of Inspector General and some of its accomplishments. Then I 
will discuss some of the challenges and operational weaknesses 
that Eximbank is facing in performing its mission.
    Eximbank OIG was created by law in 2002, but the IG did not 
officially take office until August 2007. Since reaching its 
current staffing levels, the OIG has achieved noticeable 
success. Specifically, my office has issued 20 audit and 
special reports containing over 85 findings, recommendations, 
and suggestions for improving Eximbank programs and operations.
    On the law enforcement side, we have actions totaling 64 
indictments and arrests, 9 convictions, 14 guilty pleas; and 
over 190 management referrals for enhanced due diligence 
efforts. And we currently have 37 matters under investigation 
covering over 500 transactions and $350 million in claims paid 
by Eximbank.
    Since 2009 the total overall IG financial impact is 
approximately $250 million, all of this with 11 staff, 
including myself, and a budget of $2.5 million.
    Eximbank is the official credit agency of the United 
States. It is experiencing an accelerated growth in the last 
few years. In order to provide a more effective and competitive 
environment, Eximbank needs to address some of its operational 
weaknesses. Some of these are--and we will talk in more detail 
later, but replacing an aging and ineffective IT 
infrastructure. The current IT infrastructure is old, 
fragmented, does not adequately support the Bank's mission or 
business needs, limits the Bank's ability to meet the market 
demands, and it requires manual inputs, leading to human 
errors.
    Lack of centralized and comprehensive participant data base 
that would allow the Bank to capture and track all the 
participants and all the transactions at once also limits our 
ability to do forensic work when we are doing proactive 
actions. Currently my office is undertaking a comprehensive 
audit of the IT systems, and we hope to have a report by next 
month that we can share with the Bank.
    Number two, reducing transaction approval times for short-
term and medium-term programs. Eximbank recognizes this 
ineffectiveness in its process and is looking for ways to 
improve it. At the same time, my office is commencing an 
evaluation and review of the process to see where we can 
improve the business processes and improve the deficiencies of 
the Bank.
    Number three, the Bank needs to develop annual performance 
plans to measure programs and product effectiveness. This is 
something that my office has shared with the Bank, and the Bank 
has acknowledged the need to do this. So after discussions with 
my office, the Bank has agreed to develop performance plans 
starting in fiscal year 2012.
    Finally, we think that the Bank needs to continue its 
efforts to meet its small business goals. As you know, the Bank 
charter imposes a 20-percent small business participation 
requirement on all the authorizations per year. Eximbank has 
exceeded this mandate in the last 2 years and is expecting to 
exceed this mandate again in 2011. Some of the steps the Bank 
has taken to achieve this are the Global Access Forum, some 
educational forums that they do in different States, and also 
Webinars where small business can actually learn about the Bank 
products and steps.
    Chairman Warner, Senator Johanns, Senator Bennet, and 
distinguished Members of the Subcommittee, thank you once again 
for the opportunity to testify before you today, and I would be 
pleased to respond to any questions you may have.
    Chairman Warner. Thank you for your comments. I look 
forward to the questioning opportunity.
    Mr. Thompson.

    STATEMENT OF CLAY THOMPSON, DIRECTOR, GLOBAL GOVERNMENT 
                   AFFAIRS, CATERPILLAR, INC.

    Mr. Thompson. Good morning, Mr. Chairman, Ranking Member 
Johanns, and Senator Bennet. Thank you very much for the 
opportunity to be with you today.
    In my written statement, I describe Caterpillar, Inc., and 
our global business model in some detail. I will not repeat all 
that for your this morning, but I do want to make sure you 
understand that Caterpillar is committed to its significant 
U.S. production base. We are investing $1.5 billion just this 
year toward expanding production capacity in the United States. 
Much of that additional capacity is intended to allow us to 
better serve our key export markets where our industry is 
growing rapidly and where our global leadership is being 
threatened by both our familiar competitors in Europe, Korea, 
and Japan, as well as new entrants emerging from China and 
India.
    Caterpillar customers have utilized Eximbank financing at 
relatively moderate levels in the past decade. We anticipate, 
however, that Eximbank will play a more significant role going 
forward due to at least two developments we are currently 
seeing in the marketplace and also noted in the Chairman's 
opening remarks.
    First is the limited appetite of commercial lenders for 
large infrastructure project financing, especially in key 
emerging markets. We believe going forward that export credit 
agencies like Eximbank will play an important role, enabling us 
to improve access in emerging markets where commercial banks 
need credit enhancements to support large project loans and 
augment commercial bank capacity.
    Second, we are seeing other sovereign export credit 
agencies targeting these strategic markets and partnering with 
our competitors to aggressively pursue the types of large 
infrastructure and mining projects in which we historically 
compete very favorably.
    In terms of the size and level of aggressiveness of global 
ECA activity, we fear the United States is being left behind.
    Make no mistake. Eximbank is a valuable tool for U.S. 
exporters, including Caterpillar. However, it could be much 
more effective and more competitive with other global ECAs.
    To enable this success, certain structural changes are 
necessary. My written statement focuses on three such issues 
that are most relevant to Caterpillar, and I will quickly 
summarize those this morning.
    First, the Bank should be reauthorized with an expanded 
financing limit. With approximately 90 billion in commitments 
already outstanding, the Bank is nearing its current $100 
billion cap. Increasing the cap to $160 billion should create 
sufficient flexibility to allow the Bank to compete with other 
ECAs.
    Second, Eximbank should revise its local content policy. At 
85 percent, Eximbank's local content requirement is simply out 
of whack with the rest of the world. The next lowest content 
percentage requirement belongs to Austria, at 50 percent.
    Finally, the cargo preference barriers should be removed. 
The Bank's interpretation of a 1934 congressional resolution 
requires most transactions receiving direct loan or guarantee 
support from Eximbank to be shipped by a U.S.-flagged vessel. 
Due to the severe limitation in U.S.-flagged cargo capacity, 
this requirement drives cost increases and time delays that 
customers are simply unwilling to accept. In my written 
statement I describe a real-life example where the cargo 
preference requirement adds $6 million to a potential 
customer's costs. It is not surprising that this requirement is 
leading customers to request that we source equipment to serve 
their order from outside the U.S. so that they can utilize more 
competitive and flexible ECA financing from other countries. If 
Eximbank is to truly become a competitive ECA fully supporting 
U.S. exporters and their employees, the cargo restrictions must 
be lifted.
    In conclusion, I would like to stress that Eximbank is a 
good institution staffed by dedicated and hard-working 
employees. The Bank, however, is being constrained by several 
structural inhibitors that keep it from being globally 
competitive. Removing constraints such as the ones I have 
described this morning will improve competitiveness and support 
U.S. job growth going forward.
    Thank you for your time and attention.
    Chairman Warner. Thank you, Mr. Thompson. I might just add 
I had the opportunity growing up of living outside of Peoria, 
where Caterpillar obviously had a dominant position, and it 
really is one of the great American success stories, so I 
appreciate your comments.
    Mr. Norlen.

     STATEMENT OF DOUGLAS NORLEN, POLICY DIRECTOR, PACIFIC 
                          ENVIRONMENT

    Mr. Norlen. Good morning, Chairman Warner, Ranking Member 
Johanns, and Senator Bennet. Thank you for the opportunity to 
testify on the renewal or reauthorization of the charter of the 
Export-Import Bank.
    I would like to speak today about three areas of public 
interest reforms that we believe are necessary to improve the 
effectiveness of Eximbank. These relate to agency 
accountability, climate change/renewable energy, and promotion 
of alternative export paths.
    Regarding agency accountability, Congress should require 
Eximbank to establish an independent accountability mechanism. 
Accountability mechanisms assess complaints from people and 
communities who claim to be adversely affected by projects 
supported by public banks, including problems caused by 
breaches of bank environmental and social policies. Such 
mechanisms are increasingly the normal at public finance 
institutions, such as the World Bank Group, the Asian 
Development Bank, the European Bank for Reconstruction and 
Development, EBRD, and the U.S. Overseas Private Investment 
Corporation, OPIC, as well as many others. These mechanisms are 
different from the Offices of Inspector General, which focus 
more on financial problems such as fraud, waste, and abuse and 
agency efficiency.
    In contrast, independent accountability mechanisms have 
problem-solving and conflict resolution features as well as 
policy compliance functions and advising services which provide 
recommendations to management on improving policies and 
procedures based on real-world experience.
    In our 15 years of engagement of banks on projects in 
Africa, the Caucasus, Latin America, Asia, and Russia, we have 
seen many examples of these kinds of mechanisms addressing 
impacts to community while enhancing project outcomes and 
improving agency accountability, which ultimately decreases 
project risks to Eximbank and its clients. Unfortunately, we 
have seen too many cases in which public banks without 
accountability mechanisms finance projects that resulted in 
local opposition, and sometimes uprisings, which could have 
been avoided but ultimately resulted in higher risks to these 
banks and their clients. I would be happy to provide you with 
examples upon request.
    Regarding climate change, as the world deals with the 
worsening effects of climate change, including severe weather 
patterns, melting polar ice, and increasing wildfires, it is 
incoherent public policy to provide Government financing for 
the rapid expansion of carbon-polluting energy projects. 
Despite Eximbank's new carbon policy and President Obama's 
pledge to phase out fossil fuel subsidies, Eximbank financing 
for fossil fuel projects has skyrocketed to a record $4.5 
billion last year. Congress should curb Eximbank's fossil fuel 
financing.
    Meanwhile, a more productive approach for Eximbank would be 
to support more renewable energy and energy efficiency exports 
which would have the simultaneous impact of helping to address 
climate change and promote significant U.S. job and 
manufacturing growth. According to a British Petroleum 
statistical review, renewable energy consumption grew 15.5 
percent in 2010. The Pew Center for Global Climate Change 
predicts annual investment in global renewable energy markets 
of $106 to $230 billion by the year 2020.
    While Eximbank has made a worthy effort and has increased 
renewable energy financing, the GAO has found that the agency 
has consistently failed to meet a legal directive set through 
congressional appropriators for the agency to allocate 10 
percent of its annual financing for renewable energy and energy 
efficiency. Congress can, therefore, bolster and enforce the 
congressional appropriators' directives by integrating the 
annual 10-percent target in the Bank's charter while increasing 
the Bank's capital authority allocations that are specifically 
linked to renewable energy and improve Eximbank's ability to 
finance renewable energy upstream in the manufacturing process.
    Thank you very much for the opportunity to testify today, 
and I look forward to your questions.
    Chairman Warner. Thank you, Mr. Norlen.
    Mr. Ickert.

 STATEMENT OF DAVID ICKERT, VICE PRESIDENT, AIR TRACTOR, INC., 
     ON BEHALF OF THE SMALL BUSINESS EXPORTERS ASSOCIATION

    Mr. Ickert. Chairman Warner, Ranking Member Johanns, 
Senator Bennet, thank you for allowing me to have this 
opportunity to testify on the reauthorization of Eximbank. I am 
David Ickert, vice president of finance of Air Tractor.
    It is my pleasure to submit testimony to the Committee on 
why Air Tractor and the Small Business Exporters Association 
strongly support the reauthorization of Eximbank.
    Our support for the reauthorization of Eximbank is deeply 
rooted in the experiences of Air Tractor--experience with 
exports, Eximbank, and job creation. I will relate some of the 
experiences of Air Tractor, but this is a much broader and 
deeper story than Air Tractor. I believe this is story of many 
small business exporting companies and businesses across our 
Nation, and maybe even more compelling, it is the promise of 
the vast potential that exists in this country with many small 
business that could be exporting but are not. This potential, 
when it is properly nurtured and developed, will yield jobs.
    Air Tractor is a small business engaged in the manufacture 
of agricultural airplanes and forestry firefighting airplanes. 
As stated earlier, we have been in business since 1972, and we 
are 100 percent employee owned. We have one location: Olney, 
Texas. Olney is a small rural town 100 miles west of Fort Worth 
and 200 miles east of Lubbock, Texas. The population of Olney: 
3,000.
    In 1994, we began exploring ways to find financing for our 
end-user customers outside the United States. At that time, 10 
percent of our sales were export sales. With research and 
study, we ended up with two key partners: a commercial bank and 
Eximbank, both of those.
    In 1995, we did our first medium-term transaction--and that 
is what most of ours are, medium-term transactions with the 
Bank--to send two planes to Spain. Since that time we have sent 
50 planes to the Spanish market and not again have we had to 
use Eximbank, but Eximbank was key in getting us into that 
market.
    Since that time we have completed over 80 medium-term 
transaction deals with Eximbank. For calendar year 2010, we 
completed 20 and we anticipate 30 in 2011. It is worth noting 
that in those 80-plus transactions that we completed with 
Eximbank, we have never filed a claim with Eximbank.
    It is instructive maybe to look at the employment and the 
correlation of export sales of Air Tractor since 2007. At the 
end of 2007, we had 165 employees. That year 36 percent of our 
sales were export sales. In 2008, 197 employees; 45 percent of 
our sales were export sales. In 2009, 204 employees; 49 percent 
of our sales were export sales. The year ended 2010, we had 220 
employees; 56 percent of our sales were export sales.
    Thus, while the headlines throughout the country reflected 
a growing unemployment for this period, Air Tractor created 
jobs. For the period of 2007 through 2010, our employment grew 
33 percent. Our percent of exports grew 55 percent. It is not 
coincidental that these two factors grew in lockstep. The 
growth of exports has been a significant contributor to the 
jobs at Air Tractor in recent years, and Eximbank has been a 
significant reason why we have been able to grow those jobs. As 
I said, we went from 10 percent in 1995 to 56 percent in 2010. 
So at the end of 2010, with 56 percent of our sales exports, 
there were 100 people in Olney, Texas, that owed their jobs to 
exporting.
    During 2010 we did exports to 14 different countries. Now, 
that is significant for a small business like us, but it is not 
near what the world holds for us, and so we have a lot more 
promise to expand our international footprint.
    International sales, export sales are the reason that we 
will be able to continue to grow and expand and maintain jobs 
in Olney, Texas.
    Bank Chairman Hochberg has done a very good job in 
promoting small business commitment at the Bank. Other 
administrations have not been as committed, so we think it is 
very important in the reauthorization consideration that the 
small business language that now exists be highlighted and be 
continued in the current reauthorization.
    During 2010, we paid $300,000 in fees to Eximbank, and we 
were glad to do it. We had no expenses--or no claims, so it was 
a good deal for everybody. As Chairman Hochberg made the 
comment in the January speech, ``The Bank makes money. What a 
wonderful situation. Everybody wins--including the U.S. 
taxpayer.''
    Olney, Texas, is my hometown. It is a place that is great 
to live in and work in. I described it before when I was 
describing it. It is a town with three red lights and a Dairy 
Queen. I am proud of it. But it is not exactly what you think 
of when you think about an exporting town. But my point is if 
we can do it in Olney, Texas, small businesses can do it all 
over the United States. But we need the help of Eximbank.
    Thank you.
    Chairman Warner. Well, thank you, Mr. Ickert. Very 
impressive story, and, you know, in an effort to reinforce the 
spirit, we want to show you that not everybody in the Senate 
always argues with each other, and as opposed to the Chairman 
going first, I am going to let my friend----
    Senator Johanns. That is not true.
    [Laughter.]
    Chairman Warner. ----I am going to let my friend, the 
Ranking Member, take the first round of questions, recognizing 
his time constraints.
    Senator Johanns. I had better jump in here before Senator 
Bennet objects.
    Mr. Ickert, you have a great story to tell and I know from 
experience that there are a lot of small businesses in my State 
of Nebraska and really across the country that would love to be 
in your chair telling the same story. So my question to you is, 
you have had success in accessing the international 
marketplace. Others have not, and maybe it is because it just 
looks too complex, too challenging. I do not know. There could 
be a whole host of reasons. But if you were to give us advice 
on what we would do in the reauthorization specifically to try 
to boost our efforts with small businesses accessing the export 
market, what would you tell us?
    Mr. Ickert. Delegated authority, I think, would be a 
continued step toward small business, where they could go to 
banks and places, groups, close to them to get not only advice, 
but underwriting and help. Another big thing, I think, and it 
is not the subject of the reauthorization, but it is 
appropriations for the Bank, where the Bank would have the 
proper administrative budget and also the proper IT 
infrastructure to be able to move deals along quickly. They 
have got to have those tools, and the quick turnaround time, I 
think, is essential, especially to small businesses, in 
embracing exporting. Seeing deals done, seeing success breeds 
more opportunities and more attempts for them to go into the 
market.
    Senator Johanns. Great. Like I said, you have a great story 
and I would love to see that story repeated across our country, 
because, like I said, I have seen businesses that want to be in 
the export market. They would even spend the money to travel 
with me on trade missions. Some would be successful, like you 
have experienced. Others, they just could not quite figure out 
how they could do it. And so anything that we can do that would 
be helpful would be very positive.
    Mr. Thompson, you are kind of on the other end of the 
spectrum. You are certainly a large enterprise, very familiar 
with the export market. I would like you to give me a practical 
example, if you would, about the content requirement, because 
as you know, that is a very, very sensitive issue. But give me 
just a practical description about how that can be a stumbling 
block to actually doing more business in the export arena.
    Mr. Thompson. Well, the range of Caterpillar's local 
content for equipment manufactured in the U.S. is roughly from 
70 percent to about 88 percent, so when you talk about our 
product that qualifies for full Eximbank financing support, it 
is a pretty narrow slice, so--and you have to remember, we are 
bidding competitively for truck deals in places like Indonesia, 
cited in my written statement, against competitors who are 
coming in with very aggressive bids.
    So the fact that such a narrow slice of our product is even 
eligible for full financing is a problem, and if you cannot get 
full financing from your home Eximbank, it is almost guaranteed 
that other countries will come in with full financing for their 
locally produced product. So it sets us at a competitive 
disadvantage once we get to the financing discussion with 
customers, there is no doubt about it.
    Senator Johanns. Mr. Gratacos, you talk a little bit about 
exposure limits. These days, one of the things uppermost in 
everybody's mind is concern about putting the taxpayers on the 
dotted line, if you know what I am saying. Describe for me your 
comfort level in us going from $100 billion to $160 billion, 
which I think is the House proposal, and witnesses here have 
supported that, because there is exposure here, as you know. I 
would like, just from your standpoint as somebody who kind of 
looks over this and is looking out for the taxpayers' 
interests, give me your comfort level on us taking that next 
step.
    Mr. Gratacos. Well, I think raising the ceiling for the 
authorization levels is something that the market is asking 
for. So I think this Subcommittee should consider moving the 
ceiling up. Whether or not it is along the lines of the House 
proposal is something for this Subcommittee to debate.
    We think that the real exposure on the Bank side will be 
enhancing the due diligence practices on the medium-term side 
and short-term side. If you look historically, the long-term 
side has low claims. On the medium-term side is a different 
story. So I think the real challenge will be to improve the due 
diligence practice on that side.
    Having said that, I think the Bank historically has 
demonstrated it has been able to handle the increases on 
authorization levels since its inception. There will be some 
matters that we will be looking at down the road in terms of 
risk management practices because of the concentration, risk 
concentration on the portfolio, which is on the transportation 
side, but that is something that we will be talking to the Bank 
down the road.
    Senator Johanns. OK. Great. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Johanns.
    I want to pick up on a couple lines of questioning that 
Senator Johanns started with. One is on the local content 
percentage--and this is directed to Mr. Thompson, but if 
anybody else on the panel wants to weigh in, please feel free--
the challenge, particularly as we see other ECAs have more 
flexibility, it becomes difficult with the goal to kind of 
increase American jobs, as Senator Bennet mentioned, how you 
mention with the number here. What kind of thought has been 
given? Clearly, the kind of old definition of what is local 
content versus kind of the component part make-up at this point 
and the more global supply chain is really different. Are there 
ways to think about this issue other than on a percentage basis 
kind of in that definitional space around local content?
    Mr. Thompson. Well, I think what we see other countries 
doing--Canada, for example, they do not even talk about a local 
content requirement. They talk about, more broadly, whether a 
transaction benefits the economy or the employment base of the 
local country, and other countries adopt a bit more of that 
type of test.
    It is, as I said, a bit short-sighted in our view to have 
an 85 percent local content requirement that only considers 
actual physical piece parts, does not take into account R&D and 
other marketing services that may have taken place within the 
U.S. to facilitate the ultimate sale of a product. From a job 
creation standpoint, it is only going to benefit Caterpillar to 
lower that content requirement. That means more of our product 
will be financed. That means more of our product will be built. 
That means more of the people assembling that product in 
Decatur, Illinois, and other places will be employed and so on 
and so forth back through the supply chain that we robustly use 
here in the U.S.
    Chairman Warner. Has there been any thought from industry 
about an either/or, either 85 percent or if you can demonstrate 
more jobs and investment that would come from not having the 
strict percentage? Has anybody worked down to that detail? We 
have had a lot of kind of off-line discussions with folks about 
this issue and I know it is challenging, but have people looked 
at alternative definitions?
    Mr. Thompson. Well, certainly the either/or example you 
throw out would be an improvement over what we face now, but we 
would probably prefer to see that percentage dropped even under 
the either/or scenario. And, you know, that is going to create 
administrative challenges for the banks to measure a less 
quantifiable standard, but when you look at the overall 
competitive situation we are in, we think that is preferable to 
the situation we are in now.
    Chairman Warner. Let me also ask--and this is for both Mr. 
Norlen and Mr. Thompson, I am going to come back to Mr. Ickert 
in a couple minutes--we talk about, and I think you raise a 
good point in your testimony, again, that for a long time, 
other than ECAs, there was not a lot of backstop for emerging 
markets, long-term financing, and now we have got the 
circumstances of, again, the Chinas of the world trying to make 
aggressive policy moves in those countries. Yet the credit risk 
analysis, the underwriting standards for some of these 
countries have got to be a little more challenging. Mr. Norlen 
also talked about the notion of how we make sure we move 
forward with our, I think, appropriate goals around climate 
change.
    But there may be--do you have a different underwriting 
standard for those type of deals? And I just am curious, 
comment-wise, how we achieve these policy goals--and Mr. 
Gratacos, if you could also comment, as well--at the same time 
making sure that we maintain the high underwriting standards 
that the Bank has had to make sure that we get a return on 
taxpayer investment. We can just go down the list, and I am 
going to come back for a second round with Mr. Ickert.
    Mr. Gratacos. Yes. I think that the way for the Bank, like 
any other bank, to actually conduct different due diligence 
standards based on the risk associated with the transaction. 
Either when you look at a market that you have no experience 
with, there is actually a set of due diligence steps that you 
can take to address the situation, and it depends on the 
products, too. If you look at the history of the product, the 
likelihood of having a default in the long term is much less, 
historically speaking, than if you look at the medium-term or 
short-term.
    So in those transactions, given the new areas that the Bank 
is expanding in, the knowledge or limited knowledge of the 
market and the lack of current information on some of the 
borrowers, I think the Bank had no choice but to enhance the 
due diligence standards, looking at either financial statements 
or any other steps that they can take to minimize the risk that 
they are undertaking.
    Chairman Warner. All right. Mr. Thompson and Mr. Norlen, 
and then I will move to----
    Mr. Thompson. I might comment just briefly, just to clarify 
a little bit on some of the assumptions behind the 
environmental policies the Bank encourages. It should be 
remembered that the leverage of a supplier in these types of 
transactions is limited. So if there is a coal mine bid, for 
example, and Caterpillar mining trucks are being considered for 
the bid, our mining trucks built in Decatur, Illinois, operate 
with the cleanest diesel engine emissions capable anywhere in 
the world.
    If we do not get that deal because our financing package 
from Eximbank is not as competitive or Eximbank declines to 
support it, that deal is going to go to a company--someone is 
going to be mining that coal using equipment that probably is 
not as environmentally responsible as ours.
    Chairman Warner. Mr. Norlen.
    Mr. Norlen. Mr. Chairman, it is very important for the U.S. 
Government to do more internationally through the OECD and 
through the G-20 to press other governments for higher 
environmental standards. But as discussed by many panelists 
today, some of the projects that we are dealing with in some of 
these countries are extremely high-risk projects which pose 
risk to the U.S. Government, to Eximbank, and thus to the 
American public.
    We need to take measures that reduce the risk of 
environmental and social harm and thus reduce the risk of 
potential opposition to projects, and that can take many forms. 
We have seen instances when local people have formed 
roadblocks. We have seen instances where governments have 
expropriated projects, sometimes on the basis of growing 
frustration because of a lack of concern for environmental and 
social risks.
    It seems interesting to me that we would compete with other 
countries on the basis of who could increase the greatest 
amount of risks to themselves. It seems illogical to us. And so 
we need to do better. We need to incorporate independent 
accountability mechanisms and improve standards, and that 
ultimately will benefit the U.S. Government and the U.S. public 
and the clients, as well, in the end.
    Chairman Warner. Thank you. I will come back to another 
round.
    Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman, and with your 
indulgence, I am going to go off topic. I am going to come back 
to this, but I cannot resist because of Mr. Thompson's personal 
experience to ask him what, based on the experience of 
Caterpillar in China--I met with your counterpart over there in 
Beijing with the American Chamber of Commerce. If you could 
give us some thoughts about that market in particular, stepping 
away from the Eximbank conversation, and what you see as the 
real barriers and the real opportunities in China for our 
exporters. What is it that we can do?
    There is a lot of discussion about the rising GDP there 
versus here. We still obviously have a huge GDP per capita 
compared to the Chinese that presents an enormous opportunity 
if we can figure out a trade arrangement that actually makes 
sense. And since you are here, I think it is important to take 
the opportunity to hear your wisdom on that.
    Mr. Thompson. Thank you, Senator. I can only speak for our 
industry, at least knowledgeably, and China is one of the most, 
if not the most, rapidly growing market for our products and 
services in the world. So it is a place that we specifically 
see the competitive landscape for leadership in our industry 
playing out right now. We have to compete there. We have to 
compete effectively there.
    There are challenges there and things like local 
procurement and indigenous innovation and currency issues have 
been discussed here in another context to a great extent. We 
are very encouraged by the commitments that President Hu made 
in his state visit earlier this year on the local procurement 
and the indigenous innovation side to make sure that that is a 
more even playing field than it has been historically, and we 
are seeing those commitments being followed through in China, 
so that is very encouraging.
    You know, Caterpillar has a little bit different 
perspective on this in terms of the potential competitive 
landscape. In the 1980s, when currency levels were where they 
were, Komatsu from Japan was making huge headway against us in 
the global marketplace and the Japanese industry in general was 
seen as a big threat and there were companies that went to the 
Government and asked for certain levels of protection and there 
were companies that buckled down and said, this is a challenge 
and we need to improve our game and compete more effectively. 
Caterpillar chose that latter route, and in looking back on it, 
that made us a much, much stronger company and into the leader 
that we are today. That is sort of how we are viewing the 
Chinese landscape, as well. And we have seen waves of this from 
Korea and other places, as well.
    As long as we have got a level playing field in which to 
compete, and we think the signs are heading that way, we are 
excited about the opportunity in China. It is a huge growth 
opportunity for us.
    Senator Bennet. Thank you. I wanted to follow up on some of 
the questions from the Chairman with Mr. Norlen and Mr. 
Gratacos. My understanding is that according to GAO, from 2003 
through the first half of 2010, renewable energy constituted 
0.23 percent of total Eximbank financing exports, despite the 
Congressional goal that you talked about, Mr. Norlen, of 10 
percent. And from Colorado's standpoint, our clean technology 
energy industry grew at a record 32.7 percent in the last 5 
years, and we are not alone. This is happening all over the 
country. It is a huge part of America's business outlook.
    I know a lot of exports question whether Eximbank's lending 
patterns are doing enough when it comes to clean technology 
goods and services, so I would like to hear you specifically 
delineate what you think the challenges have been to meeting 
that 10 percent goal and what we can do to advance that cause.
    Mr. Norlen. Thank you, Senator. One of the interesting 
things in the GAO report was a comparison between Eximbank's 
efforts to promote renewable energy and meet that mandate and 
its efforts to meet its small business support mandate, and it 
found that it had met its small business support mandate, 
largely by integrating this mission more deeply into all the 
different departments and programs, in other words, wiring it 
more deeply into the DNA of the agency.
    Eximbank's renewable energy promotion program is a bit more 
stovepiped. We have identified several ways that we think can 
help. One, the 10 percent target that we have mentioned is an 
Appropriations Committee-set target which has to be returned to 
every year, and that is a bit, I think, frustrating for all 
concerned, and if that was in the charter, I think that would 
be taken a bit more seriously and would have a little bit more 
rigidity to it.
    Second, we believe that, for example, if some of the 
increase in capital authority for Eximbank is linked to 
specific renewable energy targets and if there are 
disincentives to not meeting that through the capital authority 
extension, such as withholding capital authority when they do 
not meet that target, that that might help, as well.
    Increased assignment of staff, of existing staff and 
management to the task could also potentially help. With small 
business, there is any number of staff and officials within 
Eximbank that are specifically tasked to this. Ex-Im Bank 
currently has a pretty small renewable energy, energy 
efficiency department, and these and many other somewhat 
practical and simple measures, we think, could greatly help.
    Mr. Gratacos. I think I kind of agree with some points that 
Mr. Norlen made regarding the staffing and some of the other 
steps. But I think we have to take that report it into context, 
put into context. There was a report issued by the Department 
of Commerce talking about renewable energy exports for 2009 and 
it only mentioned--there were $2.4 or $2.5 billion in renewable 
energy exports. Well, Eximbank's authorization levels for that 
year were about $24 billion, right, and so 10 percent of that 
will mean that every exporter of renewable energy in the U.S. 
will have to be supported by Eximbank to be able to meet the 10 
percent of this authorization. So it is good to put that into 
context when we look at the report, and that is something that 
the GAO report actually acknowledges in their report.
    The second point is that there have been steps taken since 
that were actually coordinated by the new Administration that 
are part of the different marketing efforts that the Bank is 
taking. Before, the Bank was pushing all of its products mainly 
through lenders. It was a lender-driven situation. Now, they 
are doing some of the steps that we mentioned before, which is 
taking the product toward the exporter with all these events, 
and they have created some products for renewable energy, like 
Solar Express and some of these other products, and the hope is 
that at some point it will actually increase the levels of 
authorization to be able to get as close as possible to that 10 
percent.
    So there are some things the Bank could do better, like Mr. 
Norlen mentioned, but also, there was some limitation because 
of the market they were servicing.
    Senator Bennet. That is helpful. Thank you. I would like to 
thank all the witnesses. Mr. Ickert, thank you for your 
testimony. It is a great story. And, Mr. Chairman, thanks again 
for having this hearing.
    Chairman Warner. Thank you, Senator Bennet. I do not know 
if you have got other questions. We could go back and forth, or 
are you--all right.
    Let me go to Mr. Ickert and Mr. Gratacos at this point, 
although let me make one editorial comment about your question. 
I can see you turned it on to get a response. I think Mr. 
Thompson's comment, celebrate the Caterpillar success story, 
and I want us to do all we can to expand our trade 
opportunities with China. I am actually pleased that you 
think--the statement that the Chinese are starting to move 
forward. You know, I do get concerned at times that I think 
many American businesses have this eye of this wonderful 
opportunity of the Chinese markets and sometimes sacrifice 
standards, intellectual property, adhere to restrictions to get 
into the Chinese market that they would not do for any other 
country in the world and then complain to policymakers that we 
do not do enough to push. Again, Caterpillar has got a pretty 
good record of meeting the competition as long as there is that 
level playing field, but I do think we need that level playing 
field.
    Senator Bennet. I agree completely, and that is some of 
what I heard when I was over there, is that people are so 
anxious to get into the market, which we need to do, you need 
to do, but the idea that the Chinese would be insisting that 
you give up your IP to do that, you give up your manufacturing 
processes to do that, that is a trade that we are going to 
regret someday if we make it.
    So I think it is a combination of both, whatever business 
practice it is you are doing to out-compete and whatever policy 
we can actually--you mentioned currency manipulation, for 
example. This is an interesting topic, particularly in your 
industry, because as I understand it, what you are looking to 
do is manufacture in China and export within--not export, but 
sell within that domestic market, which means that maybe in 
that context, that issue is not really the real issue, the 
gating issue for you. But the other ones that the Chairman 
mentioned may be more important, and we have just got to find a 
path forward here so that we can build these exports.
    Chairman Warner. I agree, Senator Bennet.
    Let me, Mr. Ickert, I want to come to some of your, again, 
tremendous success story and how we see more of these success 
stories, not just in--it is Olney, Texas?
    Mr. Ickert. Yes, sir.
    Chairman Warner. Not just in Olney, Texas. I need them in 
Martinsville, Virginia, as well. And you mentioned the kind of 
distributed authority, the ability from Eximbank to try to push 
some of this decision making down, and I believe, Mr. Gratacos, 
Mr. Ickert's company would probably be in that short- to 
medium-term financing as opposed to long-term infrastructure 
category. So--and you, I think, appropriately pointed out those 
are tougher deals to underwrite and go through.
    How do we get that balance right and what can we do in the 
reauthorization legislation to get more success stories on the 
small to midsize? I would like you to follow up more on the 
distributed authority, and I would also like, Mr. Ickert and 
you, Mr. Gratacos, to comment, and again, Mr. Thompson, you may 
want to weigh in on this, as well, the fact that we have hard 
lots of criticisms of the Bank.
    I think there is a recognition that, as you just mentioned, 
Chairman Hochberg is trying to move this forward in a better 
way, that there has been slow processing time, which is a 
particular burden to small- and medium-size industries, kind of 
waiting for how long to get through the bureaucracy. There was 
the 2010 competition report that noted that, and I was happy to 
hear, Mr. Gratacos, that you as the IG were looking at that, 
and I would be anxious to know, is there kind of a defined 
goal? People ought to get an answer by X-number of days when 
they have put their application in, put their review process 
in. Or are you just trying to shorten the process or actually 
get it down to a fixed number of days?
    But, first of all, Mr. Ickert, if you want to comment on 
either of those, and then Mr. Gratacos.
    Mr. Ickert. Thank you, Mr. Chairman. As my testimony 
focused on, it is about jobs and the potential for jobs, 
especially that small business can create in this country, and 
I think that potential is tremendous. I think President Obama 
was right on the mark with the National Export Initiative and 
that we need to move forward and push that deeper.
    Now, it goes back to small business. A lot of small 
businesses in this country are not exporting, but they could. 
One of the first places I think a lot of them go to when they 
ask and say, what do I do, where do I go, is probably their 
commercial bank. The more that we could have delegated 
authority, and I know the bank does have delegated authority 
now on the working capital, that it is in the charter to do 
medium-term. But the more we can push, say, the medium-term--
that is what we use--medium-term delegated authority out there 
and get the banks to be able to be familiar with it, to use it, 
and so when that small business customer comes in and says, 
what do I do, they can get not only answers, but guidance and 
steps forward to success. Otherwise, I think there is probably 
a reluctance to--or maybe not even a reluctance as much as not 
knowing where to go in Washington from Olney, Texas, or 
wherever.
    And the other thing is, along your questioning, is the fact 
of the turnaround time. The turnaround time from our standpoint 
has gotten much better under Chairman Hochberg's 
administration, but at times in other administrations, it has 
been very slow.
    Chairman Warner. Can I just ask one--interject one question 
there?
    Mr. Ickert. Sure.
    Chairman Warner. Do you think your turnaround time--I like 
Chairman Hochberg. I hope it was because of his administrative 
changes. But do you think the turnaround time improved because 
there was a change in Eximbank administration or do you think 
it was because you had had a good track record of doing 
business with Eximbank?
    Mr. Ickert. I think actually it was probably a little bit 
of both, but I think it had to start with the administration 
saying, we are going to do things faster.
    But, going back to small business and getting more small 
business in the exporting, that time, that wait time, if it is 
2, 3, 4 months, they are going to get frustrated and they are 
not going to come back. So I think the turnaround time is very 
important. So that goes back also to delegated authority. It 
goes back to having the budget and the IT infrastructure to 
move deals through. But it goes back from the administration at 
the Bank, saying we are going to do a better job. We recognize 
we are not doing it as fast and we are going to do better.
    Chairman Warner. But would you have as a goal--and we are 
going to get to you next, Mr. Gratacos but is there--the thing 
I wrestle with is some deals, having spent longer still on your 
side of the dais than this side of the dais and as a business 
guy for 20 years and having done financing, some deals are 
tougher to sort through than others. I guess the concern I 
have, if we had a set deal and any approval needs to get an 
answer within 60 days, which would be a great goal as business 
guys we might have, but that might knock out certain more 
complex deals that you cannot just get done in 60 days. Should 
it be more of a flexible rolling goal of we want to get 80 
percent of the decisions by X-number of days, recognizing there 
are some deals that may be a little more complex? Have you or 
the kind of the association of small- and medium-sized 
businesses who are also wanting this time quicker, do you have 
some specific proposals in that area?
    Mr. Ickert. Well----
    Chairman Warner. Or if you would like to think about it 
beyond and get back into the record on some ideas----
    Mr. Ickert. I could do that, but also, I think it is--there 
is--it is incumbent on all parties. The exporter submitting the 
deal needs to know that they have a responsibility to have 
vetted it and to submit a complete package, and so, again, that 
goes back to the education process. That goes back to the 
delegated authority. It goes back to being hands-on in the 
field educating small business.
    So, first of all, there is a responsibility there. I do 
think that you are exactly on point as far as the complexity 
and that there should be--there are some deals that are going 
to be outside of a time limit. We like to see our deals through 
in 30 to 45 days. Sixty actually is a little bit long. But I 
think the main thing is if there is communication back and 
forth, that people know the deals are moving, they know where 
the complexities are, they know where the issues are, that 
mitigates to a large extent the wait. It is when they go in, 
you lose them, and you hear three or 4 months back, which has 
been the case in the past, is not the case now. But that 
discourages small business. That discourages job creation in 
this country.
    Chairman Warner. Thank you, sir, and Mr. Gratacos, I would 
be anxious to hear, again, what some of your work--you 
mentioned your three points you were looking at. This kind of 
more agreed-upon time line of getting back to folks, I would be 
anxious to hear, and also the question of whether kind of a 
more standardized underwriting process would lead to that 
quicker response.
    Mr. Gratacos. Well, I like what Mr. Ickert said. I wish 
some of the exporters were that responsible. He is saying that 
exporters should know what they have to do.
    I am going to address some of the points based on your 
question and his question. First of all, delegated authority in 
the medium-term program. It is a product that is relatively 
new. I think it has been in place for about 3 years or so. It 
is not a product that has been received well by lenders, and I 
think that is where the problem lies. There is some back and 
forth with lenders as to how the delegated authority program 
should look like on the medium-term side.
    The reason is you look at the numbers. Only three lenders 
have actually signed up for it insofar as information I have. 
Two of them--one of them has not even finalized all the 
paperwork. One of them finalized the paperwork with no deals. 
And then there is one that has about 30-plus million dollars.
    Chairman Warner. And the reason why most of the lenders 
have not signed up for this, do you have----
    Mr. Ickert. Well, it depends who you ask. I mean, some--if 
you talk to the Bankers Association of Finance and Trade, they 
are saying, well, asking the bank to have some exposure on the 
deal, which is a tradeoff for the delayed authority, has not 
been something that they would be looking at.
    Mr. Gratacos. They also alluded to the fact that that was 
part of the honors requirements that the banks are imposing, 
but then when we look historically, I went back in my office, 
went back and looked to 2000 and 2011, we saw that the actual 
medium-term transactions were going down even before some of 
these requirements were asked or imposed.
    So the question is, is the market by itself using--
minimizing the use of medium-term in the ECA context? It is 
hard to tell. I think from the Bank's perspective, I believe 
there were 600-plus transactions in 2000 worth $1.8 billion or 
so. It went down to maybe 200 transactions in 2009 with $600 
million, and the last few years, it actually had gone up, where 
this year the projection says that it is going to be in the 300 
to 400 transactions, $1.3 billion, almost getting to that 2000 
level.
    So is it a matter of the product, that it was just created 
3 years ago, or is it that the bankers or lenders do not feel 
that it is a product that they can benefit off? It is hard to 
tell at this moment. I agree that it will have a benefit for 
the exporters, like Mr. Ickert is saying, because it will 
expedite the process since some of the work will be done by the 
lenders on the processing side.
    Going back to the other questions that you have, and I 
believe you said how is the IG review on the processing time, 
we are actually looking at the way to improve the entire 
process in terms of the cycle time, and there are different 
levels of approval based on the product or the program. If it 
is short-term, there should be a set of times, if it is medium-
term, and if it is long-term. Because of the complexity of some 
of the deals that you alluded to, it is hard to put the line on 
all medium-term products.
    But I think in the case--I have not looked at the case of 
Air Tractor specifically, but having someone who has no history 
of claims, having someone who understands the process of 
exporting products and the Bank is familiar with may help 
expedite the transaction, obviously, and that might be the case 
that he is experiencing. I think the Bank has realized that 
they have to do something about lowering the time, and I think 
there is a lot to be done internally, where you can create 
internal deadlines within the groups of individuals involved in 
a transaction and hold those divisions accountable to minimize 
the length of the transaction. So if we have some legal 
questions, if we impose performance measures where we say, 
legal, you only have 5 days to turn around your concerns, as 
opposed to spending 20 days looking at the legal arguments.
    You know, that is something the bank can do with no 
alteration to the charter, no improvement in IT systems. I 
mean, this is something that goes in-house, and I think that is 
what we are looking at, you know, how can we develop a process 
where the Bank can actually lower the cycle time, can minimize 
the impact on the wait, and can actually hold people 
accountable within the Bank, and I think everybody will benefit 
from that.
    And I think you may have--oh, and that shows, I think 
something we were talking about earlier, some of the issues 
that the Bank has in terms of performance matrix. I mean, this 
would be something that should be captured. It should be 
something measured. And that way, you know where your 
performance lags. And I think that it goes with the whole view 
that we have from the top of how we can improve the process of 
the Bank. But we are focusing on short-term and medium-term 
first. Long-term, some of these deals are more complex and so 
it is very hard to put the Bank in a bind by asking them to get 
it done in X-number of days.
    Chairman Warner. Well, thank you, and I do want to give Mr. 
Ickert one chance to respond on the delegated authority. It 
does seem to me this is not appropriate, or I do not believe, 
at least, the appropriate role of Congress to specifically 
instruct a date certain for each deal review, but I do think 
the policy goal of trying to shorten that process or at least 
make sure, as Mr. Ickert has pointed out, for first-time 
applicants that they hear from the bank so they do not just 
kind of go into this waiting period forever and policy goals 
that might not be X-number of days for every deal, but a goal 
that 90 percent of the deals in what category would be done at 
legal within 5 days. You have got to leave some out for those 
complex deals because this is not all cookie-cutter.
    Mr. Ickert, do you have any comment about the fact that not 
so many institutions are taking on this delegated authority 
opportunity?
    Mr. Ickert. I think that, as he stated, there is some 
concern on the Bank about how much exposure they have, and I 
think that is where the discussion seems to have a shutdown. If 
we could have more emphasis from the Bank, the Ex-Im Bank, with 
the commercial banks to try and draw these people in, I think 
there is some room to negotiate and move forward. But I think 
it is on the matter of how much exposure the banks have.
    But the ultimate thing that we get to, if Eximbank is at 
$35 billion in authorizations now and their staff is stretched, 
their budget is stretched, and we--I was at EBC last week. They 
did $88 billion last year. If we are going to go to those kind 
of numbers, we have got to look further than just 811 Vermont 
on how we move deals through the channel, and delegated 
authority seems to be, in my humble opinion--and understand, I 
am from Olney, Texas, that the banking system is there and it 
would----
    Chairman Warner. Your numbers have been pretty good the 
last three or 4 years, so keep going.
    [Laughter.]
    Mr. Ickert. That the banking system is there and delegated 
authority would be a way to be able to get a system to move 
more deals through and create more jobs in this country.
    Chairman Warner. I have got one last question I just want 
to raise, and I think, Mr. Gratacos, you raised it, and I 
believe, Mr. Thompson, you raised it, as well. I find it 
interesting when we have areas like Eximbank where we have a, I 
think, a success story, but a success story that is under 
competition from abroad, that is making money, that my 
inclination is that we need to expand the authority if we are 
going to reach this goal and we need more Ickerts up here 
telling these small- and medium-sized success stories, that we 
still seem to have this kind of desire amongst some in Congress 
to micromanage the administrative half of the budget, and I may 
be a little biased having a telecom and IT background, but the 
notion that we would not put in place advanced IT systems to 
try to be able to speed up this processing time, to be able to 
assist the staff, seems a bit short-sighted to me, and I know 
that was one of the points you raised, Mr. Gratacos, but maybe 
we can let, if there is any of the other panel that wants to 
comment on that, and then, Mr. Gratacos, you get the last word 
on that issue. Does anyone want to raise a comment on that?
    Mr. Thompson. Well, Senator, this may be more responsive to 
the last question than your most recent question, but I think 
Caterpillar does hear from customers frustration about the 
slowness of the Bank. To a certain extent, customers are always 
going to complain about the slowness of a bank. But I think it 
is important to remember there is the credit side and the 
policy side of the Bank, and I think the type of IT investments 
and the other process improvements that we are talking about 
here would definitely speed up the credit side.
    I think, respectfully, it would be important, though, for 
Members of the Committee to remember as you are thinking about 
this issue, the policy side, as well. To the extent that we are 
trying to implement public policy through the Bank, and to the 
extent we are going sort of beyond OECD requirements in doing 
that, those steps all require a level of transactional due 
diligence at the transaction level that add to this slowness, 
certainly relatively to other global ECAs.
    So I am maybe thinking too much in my neighbor's head here, 
but it seems a little bit unfair for Congress to say, Eximbank, 
you have to go faster, but on the other hand, here are a bunch 
more requirements we want to make sure that are implemented as 
a result of these financings.
    Chairman Warner. Mr. Thompson, I am shocked. You are saying 
that Congress might put out contradictory messages?
    [Laughter.]
    Mr. Thompson. Uh----
    Chairman Warner. Mr. Gratacos.
    Mr. Gratacos. It is Government.
    [Laughter.]
    Mr. Gratacos. He has a point. I think to be more 
competitive, the Bank needs to upgrade its IT system. I think 
there is no question about it. It is one of those areas of the 
Bank where everybody understands is a problem, and I have 
raised this point before. We are a big advocate for the Bank to 
be able to get the resources, not only IT-wise but also staff-
wise. I mean, look at the growth of the Bank the last six, 7 
years. Keeping the same levels, staff levels, for the past 10 
years, the portfolio has grown significantly.
    Because of my position, my concern will always be how is 
that money going to be invested, and my concern always has been 
if we advocate, because we think it is something the Bank needs 
to be more competitive, but make sure that there is a 
comprehensive plan in place where all the business needs and 
processes are in place so that you can actually make the Bank 
competitive from the operational side and, therefore, provide 
better customer service in the long run and to be able to meet 
the demands that the U.S. market is presenting.
    Chairman Warner. Well, I would like to very much thank the 
panel, I think, for a very good discussion. It has helped me 
and my thinking on this issue. I think you have all brought a 
very interesting perspective.
    As I said at the outset of the hearing, we will add 
additional testimony from folks who could not join us today. I 
know there was particular interest from Thea Lee from the AFL-
CIO and Owen Herrnstadt from the Machinists. I think their 
testimonies are going to go at the issue that we spent some 
time on today in terms of the issue of content, which we all 
have that policy goal of advancing American jobs and business, 
and, Mr. Norlen, I believe as well as you, in a way that takes 
advantage of these new business opportunities as well as the 
valid environmental issues you raise, and that is the question 
of whether a fixed percentage is the only way to go at it when 
this is an issue that deals with not just domestic content, 
local content, global supply chain, margin allocation, company 
financing. It is more than just a fixed percentage, and I think 
there are examples of other ECAs around the world who have 
taken a different approach that have shown some success.
    But we do at the end of the day need to recognize, as most 
Members have made--most of the testimony and I think all the 
Members, we have got a credit deal here and we have got a 
policy goal, and trying to get that balance right and trying to 
get it right in a way that we can get timely responses. The 
Caterpillars and the large companies understand this. There are 
a host of other small- and medium-sized businesses that need to 
duplicate your record and get advantage of the kind of success 
story you have got and we think Export-Import Bank can be a big 
piece of that. I think we have got to look at an expanded 
authority if we are going to stay competitive. So this 
Subcommittee will work and work with the full Committee and we 
hope to move forward on this reauthorization.
    As I indicated at the outset for my colleagues who are not 
here, the record will remain open for the next 7 days and they 
may have some written questions for you all.
    Again, I thank the witnesses, and with that, the hearing is 
adjourned. Thank you all very much.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]
    [Prepared statements, responses to written questions, and 
additional material supplied for the record follow:]
                PREPARED STATEMENT OF SENATOR MARK KIRK
    I would like to thank Chairman Warner and Ranking Member Johanns 
for holding this important hearing.
    I support reauthorizing the Ex-Im Bank before its mandate expires 
on September 30, 2011. As a self-sustaining agency, it carries no cost 
to the taxpayer. In fact, it has earned $4.5 billion in revenues for 
the U.S. Treasury since 1992.
    Support from Ex-Im remains important for multinational companies as 
well as small- and medium size enterprises across the U.S. Caterpillar, 
for example, employs 23,000 people in Illinois and has benefited from 
$300 million of the Bank's financing since 2006. Since 2007, Ex-Im also 
provided financing to 180 small businesses across our State.
    As we work to reauthorize Ex-Im, I urge this Committee to adopt 
commonsense reforms to render Ex-Im a more competitive and effective 
global export credit agency. Foremost, I support increasing Ex-Im's 
lending cap to $160 billion by FY2014, consistent with the level that 
passed the House Committee on Financial Services on June 22, 2011, as 
part of the Securing American Jobs Through Exports Act of 2011 (H.R. 
2072).
    I believe the Committee should lower the domestic content 
requirement for Ex-Im supported exports. According to the Chamber of 
Commerce, current policy ``fails to account for the present day reality 
of global supply chains which exporters need to maintain their 
international competitiveness.''
    Additionally, I support the recommendations made by Ex-Im's Office 
of Inspector General to streamline Ex-Im programs and operations and to 
stamp out fraud and abuse.
    Without these reforms, Ex-Im stands to lose additional ground to 
its global competitors. Despite recent increases in export volumes, Ex-
Im still finances less than 5 percent of U.S. exports. In 2010, China 
supported over three times the amount of medium- and long-term official 
export credit volume than the United States.
    Ex-Im's mission remains critical to maintaining U.S. 
competitiveness, opening new markets for our employers and creating 
American jobs. However, it is no replacement for sound tax and trade 
policy that provides necessary incentives to keep jobs in the U.S. and 
gives American companies the tools to compete globally. In addition, we 
must curb the regulatory zeal of Washington's bureaucrats, which 
threatens to drive jobs abroad.
    I look forward to working with my colleagues to reauthorize the 
Export-Import Bank of the United States.
    Thank you.
                                 ______
                                 
              PREPARED STATEMENT OF OSVALDO LUIS GRATACOS
                 Inspector General, Export-Import Bank
                             June 30, 2011
    Good afternoon, Chairman Warner, Ranking Member Johanns, and 
distinguished Members of this honorable Subcommittee.
    Thank you for the invitation and opportunity to testify before you 
about the activities of the Office of Inspector General (OIG) and the 
programs and operations of the Export-Import Bank (Ex-Im Bank) as it 
relates to Export-Import Bank Reauthorization. Before I continue, I 
would like to thank the Almighty for this opportunity, my family, and 
the members of the Ex-Im OIG staff for their hard work.
I. Ex-Im Bank
    The Ex-Im Bank is the official export credit agency (ECA) of the 
United States. Ex-Im Bank supports the financing of U.S. goods and 
services in international markets, turning export opportunities into 
actual sales that help U.S. companies of all sizes to create and 
maintain jobs in the United States. Ex-Im Bank has programs to address 
short, medium, and long-term needs of exporters; assuming the credit 
and country risks that the private sector is unable or unwilling to 
accept. Ex-Im Bank also helps U.S. exporters remain competitive by 
countering the export financing provided by foreign governments on 
behalf of foreign companies. At the same time, Ex-Im Bank must 
safeguard taxpayer resources by determining that there is a reasonable 
likelihood of repayment with respect to each of its transactions.
    Ex-Im Bank is experiencing unprecedented growth--achieving 3 
straight years of record authorization levels. Ex-Im Bank is projecting 
another record year in FY2011. For the first 6 months of FY2011, Ex-Im 
Bank reported $13.4 billion in new authorizations. Ex-Im Bank has 
achieved this increase with basically the same staffing level for the 
past decade. This not only demonstrates the commitment, knowledge, and 
expertise of the staff at Ex-Im Bank, but also the need in the market 
for Government-supported export financing in this very competitive and 
difficult credit market.
II. Ex-Im OIG
    Ex-Im OIG was statutorily created in 2002 \1\ but the Inspector 
General did not officially take office until August 2007. Since 
reaching current staffing levels, the OIG has achieved noticeable 
success in performing its statutory duties. Specifically, the OIG has 
issued twenty (20) audit and special reports containing eighty-five 
(85) findings, recommendations, and suggestions for improving Ex-Im 
Bank programs and operations. Our investigative efforts have resulted 
in a number of law enforcement actions, including: sixty-four (64) 
indictments and arrests; nine (9) convictions, fourteen (14) guilty 
pleas; and over one hundred and ninety-one (191) management referrals 
for enhanced due diligence actions. Since 2009, the total overall OIG 
financial impact is approximately $250 million. Currently, the OIG is 
investigating thirty-seven (37) open matters representing approximately 
$348 million in claims paid by Ex-Im Bank (or around 15.3 percent of 
all Ex-Im Bank claims paid as of the end of FY2010). All of this has 
been accomplished with a very modest annual budget of $2.5 million and 
a staff of 11 professionals.
---------------------------------------------------------------------------
     \1\ Export-Import Bank Reauthorization Act of 2002, P.L. 107-189, 
Sec 22 (June 14, 2002).
---------------------------------------------------------------------------
III. Competitiveness: Operational Areas
    In order to better meet export credit needs of the American 
exporters and improve the customer service experience of its 
participants while balancing its responsibilities, it is our opinion 
that Ex-Im Bank needs to address some operational weaknesses and 
challenges it is facing. We believe that addressing these operational 
weaknesses and challenges would provide Ex-Im Bank with a more 
efficient capability to create and maintain jobs in the United States. 
Besides increasing staffing levels to reflect the growth in 
authorizations, some of the challenges Ex-Im Bank needs to address are:

  <bullet>  Inefficient and Ineffective Information Technology (IT) 
        Platform. Ex-Im Bank uses an ineffective, inefficient, and 
        fragmented IT platform and infrastructure composed of several 
        systems and databases. These systems and databases do not 
        effectively and accurately interface with each other--
        compromising data integrity, duplicative information, and 
        creating unreliable files. Further, these systems make data 
        mining burdensome and time consuming.

    <bullet>  Ex-Im Bank lacks an end-to-end IT system that allows for 
        seamless management of applications/files and flow of 
        information within the Bank and would allow different 
        components within the Bank to work on the same files at the 
        same time from the same platform.

    <bullet>  Ex-Im Bank lacks a centralized and comprehensive 
        participant database that would allow the Bank to capture and 
        track all the participants (lenders, buyers, exporters, 
        suppliers, brokers, agents, and others) involved at different 
        transactions at any given moment in time. This weakness 
        prevents Ex-Im Bank and our office from conducting effective 
        forensic analysis to identify possible patterns in 
        transactions.

    <bullet>  Because the IT platforms do not fully meet business and 
        operational needs, Ex-Im Bank divisions and components have 
        created subsequent data subsystems to address the specific 
        needs of that office or division. Some of these subsystems 
        require manual input of data and do not interface with Ex-Im 
        Bank's main IT infrastructure creating additional data 
        repositories.

    <bullet>  The above described IT system fragmentation creates a 
        number of operational consequences for the Ex-Im Bank:

      <bullet>  delays in approval of transactions

      <bullet>  data integrity issues (due to manual input or updates 
        of data)

      <bullet>  multiple data storage locations

      <bullet>  burdensome and somewhat ineffective management of 
        applications and assets

  <bullet>  Develop Performance Standards and Metrics for Programs and 
        Products. Ex-Im Bank has not developed annual performance plans 
        or product performance metrics in order to properly quantify 
        the effect and success of its products. Ex-Im Bank should 
        develop these metrics in short and medium term products in 
        order to determine whether

    <bullet>  the product is achieving the intended results;

    <bullet>  the product is reaching the intended audience;

    <bullet>  the marketing strategy is effective;

    <bullet>  the product is similar or more competitive than programs 
        offered by other ECAs;

    <bullet>  the product should be altered or eliminated;

    <bullet>  acceptable levels of defaults and claims have been 
        established;

    <bullet>  levels of defaults and claims should be improved; and

    <bullet>  changes in original implementation strategies are needed.

  <bullet>  Continue Efforts to Expand Small Business Participation. 
        Ex-Im Bank charter imposes a twenty (20) percent small business 
        participation requirement of all of the authorizations every 
        year. Ex-Im Bank has exceeded this mandate in the last 2 years 
        and it is expecting to surpass it again in FY2011. Ex-Im Bank 
        has been able to achieve its mandate by

    <bullet>  conducting Export Forums throughout the United States;

    <bullet>  developing partnerships with different lenders, local 
        governments and industries;

    <bullet>  creating products specifically for small businesses 
        (Global Access, Express Insurance, and Reinsurance products); 
        and

    <bullet>  continuing collaboration and cooperation with other 
        agencies, including the Small Business Administration and 
        Department of Commerce, in order to reach out to small 
        businesses. Enhancing export opportunities requires the 
        participation, training, and collaboration of other Federal 
        agencies. The National Export Initiative addresses and 
        encourages collaboration between agencies.

  <bullet>  Continue Efforts to Expand Renewable Energy Products and to 
        Create Clean Energy Export Opportunities. Ex-Im Bank charter 
        contains a Renewable Energy mandate of ten (10) percent of all 
        the authorizations every year. Ex-Im Bank has not met this 
        mandate yet, mainly due to the fact that the renewable energy 
        exports have not reached significant numbers (compared with the 
        size of Ex-Im Bank's portfolio). Nonetheless, Ex-Im Bank has 
        taken a proactive approach in developing renewable energy 
        specific products such as Solar Express, as well as reaching 
        out to local companies such as wind and solar manufacturers.

  <bullet>  Improve Operational Efficiency by Reducing the Time it 
        takes to Approve Short and Medium Term Transactions. Some Ex-Im 
        Bank participants have complained in the past about the 
        approval times and process. Reducing the time it takes to 
        approve transactions would allow American exporters to develop 
        better relationships with clients and customers, would 
        encourage borrowers and sellers to use Ex-Im Bank, and would 
        improve the services Ex-Im Bank provides to its users.

  <bullet>  Absence of systematic approach to measure customer 
        satisfaction. Ex-Im Bank does not conduct customer satisfaction 
        surveys on a regular basis. Customer surveys provide valuable 
        insight into customer priorities, perceptions of Ex-Im Bank 
        performance, areas for improvement, and other ECA best 
        practices. On April 27, 2011, President Obama issued Executive 
        Order 12862 instructing Federal agencies (including independent 
        agencies) to develop a customer service plan to streamline 
        service delivery and improve customer experience. To this end, 
        we recommend that Ex-Im utilize customer surveys to validate 
        the priorities of its customers and the Bank's performance.
IV. Other Observations From OIG Cases and Reports
    Ex-Im Bank has the important responsibility of providing export 
financing in a very difficult credit environment while also protecting 
the taxpayers, the integrity of its programs, and the full faith and 
credit of the United States. In conducting our audits, evaluations, 
inspections, and investigations, the OIG has conveyed to Ex-Im Bank the 
following observations developed from transactions and programs under 
the OIG purview.

  <bullet>  Enhance Due Diligence and Credit Underwriting Practices 
        (specifically for Short and Medium Term programs) and Improve 
        Training Efforts to Address the Surge in Applications under a 
        Decentralized Application Approval Process. Currently, Ex-Im 
        Bank uses a decentralized underwriting process. Given the 
        lessons learned from the Medium Term program, the surge in the 
        number of transactions, and insufficient credit information and 
        history from borrowers in some regions, it is vital that Ex-Im 
        Bank enhance due diligence practices in order to better 
        identify fraudulent transactions. With Individual Delegated 
        Authority (IDA) as high as $10 million, Ex-Im Bank needs to 
        develop effective policies, procedures, and compliance 
        practices to assess effectiveness of the delegations. Some of 
        these policies should address the following:

    <bullet>  Uniform credit and underwriting standards to be used by 
        all Ex-Im Bank credit officers.

    <bullet>  At a minimum, Ex-Im Bank should make more frequent use of 
        security interest and sporadic inspections in order to better 
        mitigate risks in programs and regions where defaults and fraud 
        experience has been high.

    <bullet>  Use of financial statements in programs where defaults 
        and fraud experience is high. Further, Ex-Im Bank should 
        require independently audited financial statements in regions 
        where Ex-Im Bank has limited or unfavorable lending experience.

  <bullet>  Encourage Lender Partners and Participants to Conduct, at a 
        Minimum, Industry Standard Due Diligence on Government 
        Guarantees and Insurance Transactions. One of the patterns our 
        office has observed in conducting our investigations is the 
        lack of due diligence efforts conducted by lenders, 
        specifically the ones who have a history of defaulted 
        transactions. Even though there is an expectation that such 
        efforts have been taken, Ex-Im Bank does not require 
        participating lenders to conduct due diligence on their 
        transactions. The OIG has anecdotal evidence of loan officers 
        in lending institutions expressing their position that the 
        lender would not devote resources on due diligence efforts when 
        there is a Government guarantee and such efforts are not 
        required by Ex-Im Bank. Although the OIG is not in a position 
        to state that this is a behavior demonstrated by all lenders, 
        we can certainly state that this ``moral hazard'' issue has 
        been prevalent in fraud cases involving multiple transactions. 
        Effective implementation of ``Know Your Customer'' practices by 
        lenders could help in minimizing or preventing the number of 
        fraudulent cases Ex-Im Bank has experienced.

  <bullet>  Improve Corporate Governance, Business Processes, and 
        Internal Control Policies and Practices. One of the consistent 
        observations arising out of audits, evaluations, and 
        investigations conducted by the OIG are the weaknesses in 
        governance and internal controls, as they relate to business 
        operations. Internal policies providing clear guidance to staff 
        and establishing clear roles and authorities are not prevalent 
        at Ex-Im Bank. These areas need to be addressed as part of 
        creating a better corporate governance culture.
V. Conclusion
    Ex-Im Bank has an important role in creating and maintaining jobs 
by facilitating exports through export finance products provided to 
American exporters. Three years of record export authorization levels 
only support that role. While Ex-Im Bank continues to provide export 
credit and financing as part of its export credit agency functions, it 
should work to improve its operational effectiveness and efficiencies 
in its quest of achieving the National Export Initiative's goal of 
doubling exports in the next 4 years.
    I have highlighted some of those areas based on observations and 
relevant work performed by the OIG in order to illustrate the 
importance of proper management, oversight of strategies, and to 
incorporate lessons learned from Ex-Im Bank's prior activities. The OIG 
will continue to enhance its independent oversight role as well as 
strengthen its efforts in preventing and detecting fraud, waste, and 
abuse.
    Chairman Warner, Ranking Member Johanns, and Members of this 
honorable Subcommittee, thank you once again for the opportunity to 
testify before you today. I would be pleased to respond to any 
questions you may have. Thank you!
                                 ______
                                 
                  PREPARED STATEMENT OF CLAY THOMPSON
         Director, Global Government Affairs, Caterpillar, Inc.
                             June 30, 2011
    Good morning, Mr. Chairman and Members of the Committee. Thank you 
very much for the opportunity to be with you today.
    For more than 85 years, Caterpillar, Inc., has been a leader in 
making sustainable progress possible. With 2010 sales and revenue of 
$42.6 billion, Caterpillar is the world's leading manufacturer of 
construction and mining equipment, clean diesel and gas engines, 
industrial gas turbines and diesel-electric locomotives. The company is 
also a leading services provider through Caterpillar Financial 
Services, Caterpillar Remanufacturing Services, Caterpillar Logistics 
Services and Progress Rail Services. We are headquartered in Peoria, 
Illinois, and have manufacturing facilities, distribution facilities 
and offices across the United States. We directly employ 47,000 people 
in the United States, and our dealers and suppliers employ well over a 
hundred thousand more.
    Our ability to competitively export from the U.S. has been the key 
to our success historically, and never more so than in the current 
environment. Slow economic growth in the U.S.--historically our largest 
market--has been offset in recent years by strong industry growth in 
other key markets. In 2010, 70 percent of our sales were outside the 
U.S. and we exported $13.4 billion in goods and services, supporting 
thousands of American jobs directly and through our supplier network, 
which includes over 5,000 companies in all 50 States. Our ability to 
successfully compete globally from a significant U.S. production base 
is vital to defending our global leadership position. We are fully 
committed to that U.S. production base, as evidenced by our $1.5 
billion investment this year alone in constructing and expanding U.S. 
production facilities.
    Ex-Im Bank has played a role in facilitating our exports and that 
role is growing. From 2006 to 2009, the Bank funded $200 million in 
Caterpillar equipment exports. In 2010, the Bank financed $100 million 
in Caterpillar exports, and we expect to exceed that level in 2011. We 
greatly appreciate the hard work and dedication of Ex-Im employees that 
has contributed to this support.
    Ex-Im and other Export Credit Agencies played an important role in 
the recovery from the recent financial crisis. During this time, we've 
seen commercial lenders, especially in large project finance, become 
more risk reticent and capital-constrained. In that environment, ECA's 
such as Ex-Im have stepped forward and have helped facilitate 
international trade finance in a significant way.
    We anticipate the role of Ex-Im will become even more critical 
going forward. Competition for global leadership in our industry is 
playing out right now in markets like Asia, Africa, and Latin America. 
Our global competitors, like us, recognize the strategic importance of 
these markets. Construction of infrastructure such as roads, ports, 
rail, and distributed power--as well as support of large mining 
projects--are key drivers of our product sales. Often, the countries in 
which this type of development is most needed are also the countries 
where un-enhanced commercial financing is least available. Ex-Im is a 
critical tool that can be used to gain market access in emerging high-
growth markets where commercial banks need credit enhancements to 
support large project loans and augment commercial bank capacity. We're 
also concerned that new capital requirements and associated regulations 
will further inhibit commercial lenders' appetite to take on these 
projects.
    Meanwhile, we're seeing other sovereign Export Credit Agencies 
aggressively targeting these markets on behalf of competitors, creating 
a potential competitive disadvantage for us and others exporting 
equipment from the United States. In terms of the size and level of 
aggressiveness of global ECA activity, the United States is being left 
behind.
    According to the Coalition for Employment Through Exports, Ex-Im's 
2010 commitments totaled approximately $25 billion. In contrast, the 
Japanese export credit agencies committed last year well over $100 
billion in support of their exporters and the Chinese over $300 
billion.
    Make no mistake, Ex-Im is a valuable tool for U.S. exporters, 
including Caterpillar. However, you probably recognized from the 
numbers cited above, we have not utilized Ex-Im to a very great 
extent--especially considering the percentage of our exports financed 
through the Bank. Ex-Im could be much more effective and more 
competitive with other global ECA's.
    To enable this success, certain structural changes are necessary. 
Implementing these changes would remove the self-imposed constraints 
that keep Ex-Im from being as effective as it can be. There are three 
such issues that are most relevant to Caterpillar.
    First, the Bank should be reauthorized with an expanded lending 
limit. With approximately 90 billion in commitments already 
outstanding, the Bank is near its current $100 billion lending cap. 
Increasing the cap to $160 billion will put the Bank in a situation 
where it should not have to decline a qualifying financing opportunity 
due to capital authorization concerns. This level of authorization will 
also move the Bank closer to leading global ECA's. No addition to the 
Federal budget deficit should result from this authorization, as the 
Bank's profitability over the past several decades should continue in 
the current environment of global economic recovery.
    Second, Ex-Im should revise its local content policy which 
currently constrains its level of support to the lesser of (a) 85 
percent of the export value or (b) the value of the U.S. content. This 
level of local content requirement is completely out of line with the 
rest of the world. The next lowest supportable percentage, in Austria, 
is 50 percent. The Bank, itself, concludes in its 2010 Competitiveness 
Report:

        As Ex-Im Bank is the only G-7 ECA that does not allow for any 
        direct support of foreign content and doesn't consider other 
        factors (e.g., national interest) when determining its level of 
        support, Ex-Im Bank's foreign content policy is increasingly 
        less competitive relative to other G-7 ECAs.

    We agree.Our large mining trucks sole-sourced from Decatur, 
Illinois, for example, have local content between 75-88 percent. In 
many deals in the strategically important market of Indonesia, our off-
highway mining trucks compete head-to-head with trucks built and 
shipped out of Komatsu City, Japan, or Chennai, India. Because their 
production facilities are closer to Indonesia, our Asian competitors 
already have an advantage in quoting these deals due to lower 
transportation costs. Ex-Im's inability to provide full financing 
support because our local content is 80 percent, rather than 85 
percent, puts us at an even bigger competitive disadvantage against 
Japanese and Indian competitors partnering with their respective Export 
Credit Agencies. Lowering the local content requirement to a more 
competitive level will allow Caterpillar customers to use Ex-Im 
financing to a greater degree, thus supporting thousands of jobs in our 
U.S. assembly facilities and within our supplier base.
    We disagree with those who argue that lowering the local content 
requirements will directly result in the loss of jobs in the U.S. At 
Caterpillar, we select and develop suppliers based on criteria that 
will allow us to be globally competitive. Thus, we evaluate a 
supplier's ability to deliver a quality product, quickly, at a 
competitive cost. On that basis, the local content in our U.S. 
assembled product typically ranges anywhere from 65 to 88 percent. The 
primary impact of lowering the local content requirement will be to 
make more U.S.-assembled product eligible for Ex-Im support--thus 
expanding export and job opportunities for our U.S. assembly facilities 
and supply base. In a recent report, the highly respected and 
nonpartisan Peterson Institute for International Economics notes, ``an 
alignment of Ex-Im's domestic content requirements with other ECAs will 
encourage additional U.S. exports and expand the overall export base.''
    Finally, although we understand it may be outside the jurisdiction 
of this Subcommittee, no discussion of Ex-Im Bank competitiveness would 
be complete without at least mentioning the barrier created by cargo 
preference requirements. A congressional Resolution enacted for 
security purposes in 1934 requires U.S. Government-financed 
transactions to be shipped in U.S. flagged vessels. The Bank interprets 
the resolution to require that most transactions receiving direct loan 
or guarantee support from Ex-Im must be shipped by U.S. flagged 
vessels. The supply of U.S.-flagged vessels is heavily constrained, 
resulting in cost increases and time delays that customers are simply 
unwilling to accept.
    Let's take an example from an actual transaction that is currently 
pending. In a $200 million dollar proposed sale of U.S.-sourced 
equipment in Indonesia, very similar to the one I cited above, the 
incremental freight cost driven by the U.S.-cargo restriction is $6 
million, or roughly 3 percent of the total transaction cost. As you can 
imagine, in a competitive bidding situation, customers view this 
incremental cost as unacceptable. In fact, we are often asked by 
customers and dealers to source product from other locations so that 
customers can leverage less-restrictive ECA financing outside the 
United States.
    For Ex-Im Bank to become a truly competitive ECA that fully 
supports U.S. exporters and their employees, the cargo restrictions 
must be lifted.
    In conclusion, I would like to repeat that Caterpillar believes 
that Ex-Im is a good institution staffed by dedicated and hard-working 
employees. The Bank, however, is constrained by several structural 
inhibitors that keep it from being globally competitive. Raising the 
Bank's authorization level, relaxing the local content requirements, 
and doing away with the cargo preference requirements will improve 
competitiveness and support U.S. job growth going forward.
    Thank you for your time and attention.
                                 ______
                                 
                  PREPARED STATEMENT OF DOUGLAS NORLEN
                  Policy Director, Pacific Environment
                             June 30, 2011
    Chairman Warner, Ranking Member Johanns, and Members of the 
Committee, thank you for the opportunity to testify on the 
reauthorization of the Charter of the United States Export-Import Bank. 
I am Douglas Norlen, Policy Director, Pacific Environment, a Pacific 
Rim-based nonprofit organization. In this capacity, for 15 years I have 
focused on the environmental and social impacts and reforms of public 
and private finance institutions, with a specialization in export 
credit agencies, including Ex-Im Bank. I am pleased today to speak 
about three areas of reforms we believe are necessary to improve the 
effectiveness of Ex-Im Bank: agency accountability, climate change, and 
promotion of renewable energy.
    Agency Accountability: Congress should require Ex-Im Bank to 
establish an independent accountability mechanism. Such mechanisms are 
increasingly the norm at public finance institutions such as the World 
Bank, International Finance Corporation, Asian Development Bank, 
European Bank for Reconstruction and Development, Japan Bank for 
International Cooperation and the U.S. Overseas Private Investment on 
financial problems, such as fraud, waste and abuse, and internal 
economy, efficiency and effectiveness. In contrast, independent 
accountability mechanisms receive and assess complaints from people and 
communities who claim to be adversely affected by the projects or 
activities supported by a particular public finance institution because 
of a violation of the institution's own policies and procedures.
    An accountability mechanism at Ex-Im Bank could have three 
functions. One is to address complaints by affected people seeking to 
resolve problems with Ex-Im- supported activities. The purpose of this 
so-called ``problem-solving'' or ``conflict resolution'' function is 
not only to address existing complaints about real or potential harm 
from Ex-Im Bank activities, but also to prevent such harm from 
escalating or occurring at all. An example of this might be an Ex-Im 
Bank-supported mining project that has failed to compensate local 
people for use of their land. In this example, the affected communities 
might seek compensation through a problem-solving initiative. Instead 
of the community members feeling frustrated when attempts to raise 
concerns at the local level go unanswered, which, in turn, can lead--
and has led--to drastic actions such as a roadblocks to bring attention 
to their complaint, an Ex-Im Bank problem-solving mechanism would allow 
the complainant and the Ex-Im Bank client to enter into a structured 
dialogue with the help of a mediator to effectively address the issues.
    The second function would be compliance review, where the 
complainant may seek an independent review of the Ex-Im Bank's 
operation to determine whether Ex-Im Bank has violated its own policies 
and procedures. The purpose of compliance review is to identify issues 
of noncompliance with Ex-Im Bank policy as early as possible so that 
Ex-Im Bank can make timely adjustments to address any issues of 
noncompliance, and to provide the Ex-Im Bank Board of Directors with 
findings so that case-specific and systemic issues of noncompliance may 
be effectively addressed.
    The third function would be to provide advice to management on 
policies, procedures, guidelines, resources, and systems established to 
ensure adequate review and monitoring of projects.
    As with other such accountability mechanisms, Ex-Im Bank's 
mechanism must have appropriate safeguards for independence. The 
mechanism should be independent from line operations and management and 
report only to the Board so that Ex-Im Bank management takes no part in 
the mechanism's operation or oversight. The mechanism should operate in 
an accessible manner such that affected people could choose to directly 
access either the problem-solving or compliance review functions 
through a simple and timely complaint process. The mechanism should 
also operate in a transparent manner with a public registry of 
complaints and clear rules of procedure. Further, the mechanism should 
be empowered to issue public follow-up monitoring reports after 
agreements are reached through problem solving and after issuance of 
findings of noncompliance. The mechanism should also be able to conduct 
among clients and affected communities.
    An important purpose of these compliance and problem-solving 
mechanisms is to ensure greater likelihood of project support by local 
communities, which in turn creates a stable environment for business 
enterprise and more successful project outcomes. Independent 
accountability mechanisms are good governance tools that ultimately 
decrease project risk to Ex-Im Bank and its clients.
    In our 15 years of experience engaging the Bank on specific 
projects of concern in Africa, the Caucuses, Latin America, Asia, and 
Russia, the agency's response to those that bring evidence of policy 
violations has been a so-called ``open door'' policy. This practice 
falls short, for while concerns can be voiced, a substantive agency 
response in writing is not required, nor is demonstrated evidence of 
compliance remedies. When the agency offers its own interpretation of 
compliance, it becomes its own judge and jury. By contrast, independent 
accountability mechanisms provide the agency, Congress, and the public 
an unencumbered independent review of agency compliance and 
recommendations for problem solving and corrective measures.
    A good example of the need for an independent accountability 
mechanism is the Baku-T'blisi-Ceyhan (BTC) pipeline project transecting 
Azerbaijan, Georgia, and Turkey. In March, 2011, the British Government 
issued a report which found that the project sponsor, BP, failed to act 
on reports of human rights abuses by project security personnel 
including complaints of intimidation measures used against affected 
communities in Turkey. The report followed a complaint brought by 
nongovernment organizations that say public funders, including Ex-Im 
Bank, knew about the intimidation, but failed to check whether BP had 
procedures in place to address and remedy the violations. \1\
---------------------------------------------------------------------------
     \1\ ``BP Response to Pipe Conflict Found Lacking'', Financial 
Times, March 10, 2011.
---------------------------------------------------------------------------
    Years earlier, complaints were filed to the International Finance 
Corporation Office of Compliance Advisor/Ombudsman concerning 
environmental impacts on the BTC project, resulting in increased public 
consultation. \2\ In 2006, a claim was brought to the OPIC Office of 
Accountability regarding BP's withholding of information on the failure 
of the BTC pipeline anticorrosion coating, resulting in improved 
project monitoring on BTC and other projects. \3\ However, Ex-Im Bank, 
which also financed the BTC project, provides project-affected 
communities with no independent accountability mechanism.
---------------------------------------------------------------------------
     \2\ See, http://www.cao-ombudsman.org/cases/
case_detail.aspx?id=50.
     \3\ See, http://www.opic.gov/doing-business/accountability/
registry/cr-1-2006.
---------------------------------------------------------------------------
    Pacific Environment can provide the Committee with numerous other 
examples.
    We strongly support the language on the creation of an Ex-Im Bank 
accountability mechanism that is included in the House Ex-Im Bank 
reauthorization bill that passed the House Financial Services Committee 
last week by voice vote. We would ask only for the inclusion of a 
requirement that Ex-Im Bank report to Congress in 6 months and 1 year 
after passage of the bill on its efforts to establish such a mechanism 
so that the House and Senate authorizing committees can more readily 
carry out its appropriate oversight responsibilities.
    Meanwhile, Congress should improve Ex-Im Bank's accountability on 
fraud and corruption. Ex-Im Bank's Office of Inspector General (OIG) 
has expressed increasing concern about fraud and corruption, including 
such problems associated with Ex-Im Bank's growing number of delegated 
authority lenders (financial intermediaries). The OIG recently issued a 
report which found that Ex-Im Bank's Nigerian Banking Facility 
supported a private bank whose Managing Director was removed from 
office for financial malfeasance by the Central Bank of Nigeria (CBN) 
in 2009, and was eventually convicted of fraud and sent to prison. Ex-
Im Bank Directors eventually revoked this bank's participation in the 
Nigerian Banking Facility on the basis of the CBN intervention. 
However, the report also found that:

        [A]t no moment did Ex-Im Bank management state or mention in 
        its October 22, 2009, and October 21, 2010, memoranda to the 
        Board of Directors that a local investigation for corruption 
        charges and guilty plea of a former managing director had taken 
        place nor cite these as reasons for removal.

    While not all Ex-Im Bank financial intermediaries are associated 
with corruption, we do not believe this is an isolated incident. In 
testimony to the House Committee on Financial Services Subcommittee on 
International Monetary Policy and Trade, the Inspector General stated,

        [I]t is vital that Ex-Im Bank enhances due diligence practices 
        in order to better identify fraudulent transactions . . . ,

        The OIG has anecdotal evidence of loan officers in lending 
        institutions expressing their position that the lender would 
        not spend resources on due diligence efforts when there is a 
        Government guarantee. Although the OIG is not in a position to 
        state that this is a behavior demonstrated by all lenders, we 
        can certainly state that this ``moral hazard'' issue has been 
        prevalent in fraud cases involving multiple transactions.

    Congress should act on the Inspector General's recommendations and 
require more robust policies and procedures for reputational checks, 
including a requirement of certifications of compliance with foreign 
and domestic laws including anticorruption certifications from 
participating lender and guarantor decision makers.
    Fossil fuel financing: As the United States and other countries 
grapple with the worsening effects of climate change, including severe 
weather patterns, melting polar ice and increasing wildfires, it is 
irresponsible and incoherent for a public agency to finance the 
expansion of carbon-polluting energy projects. Despite Ex-Im Bank's new 
carbon policy, and President Obama's pledge to phase out wasteful 
fossil fuel subsidies, the agency's financing for fossil fuel projects 
increased dramatically in recent years and skyrocketed to a record $4.5 
billion last fiscal year. Ex-Im Bank's surging financing for fossil 
fuel projects exacerbates climate change, heaps scarce public funding 
on industries that need it least, and ultimately undercuts U.S. 
Government credibility and leadership towards a global clean energy 
economy. Congress should curb Ex-Im Bank's wasteful use of public 
financing on carbon polluting energy projects.
    Renewable Energy: Ex-Im Bank can address both climate change and 
lead the transition to a clean energy economy by seizing the enormous 
opportunity to finance renewable energy and energy efficiency now. 
According to a BP statistical review, renewable energy consumption grew 
15.5 percent in 2010, the fastest rate of expansion since 1990. 
Installed solar power capacity alone grew an amazing 73 percent in 
2010, while wind grew 24.6 percent. \4\ According to the Pew Center for 
Global Climate Change, this rapid pace is forecast to lead to annual 
investments in global renewable energy markets of $106-$230 billion a 
year by 2020 and as much as $424 billion a year in 2030. Over the next 
decade, cumulative global investment for renewable power generation 
technologies could reach nearly $1.7 trillion. \5\ Most importantly, 
the bulk of this market (nearly 90 percent) exists outside of the 
United States.
---------------------------------------------------------------------------
     \4\ See, http://www.bp.com/
subsection.do?categoryId=9037155&contentId=7068627.
     \5\ See, http://www.pewclimate.org/docUploads/
Clean_Energy_Update_Final.pdf.
---------------------------------------------------------------------------
    Financing appropriate renewable energy and energy efficiency is a 
compelling opportunity for the United States Export Import Bank to make 
good on its institutional mandate to stimulate domestic manufacturing, 
create jobs, position the United States in a strategic global sector, 
and provide international leadership on climate change. While Ex-Im 
Bank has increased financing for renewable energy, this volume is still 
just over 1 percent of the agency's overall financing. The GAO has 
found that Ex-Im Bank has consistently failed to meet current 
appropriations law to allocate 10 percent of the agency's annual 
financing for renewable energy and energy efficiency end use 
technology. Congress can enforce these directives by revising the 
agency's Charter to integrate the annual 10 percent target, increase 
the bank's capital authority allocations specifically for renewable 
energy, and improve Ex-Im Bank's ability to finance appropriate 
renewable energy upstream in the manufacturing process.
    Thank you again for inviting my testimony, and I look forward to 
answering any questions that you may have.
                                 ______
                                 
                   PREPARED STATEMENT OF DAVID ICKERT
  Vice President, Air Tractor, Inc., on behalf of the Small Business 
                         Exporters Association
                             June 30, 2011
    Chairman Warner, Ranking Member Johanns, and Members of the 
Committee, thank you for the opportunity to testify on the 
reauthorization of the Export-Import Bank of the United States (Ex-Im). 
I am David Ickert, Vice President--Finance of Air Tractor, Inc. (Air 
Tractor), of Olney, Texas. It is my pleasure to submit testimony to the 
Subcommittee on Security and International Trade and Finance stating 
why we at Air Tractor strongly support the reauthorization of Ex-Im.
    Our support for the reauthorization of Ex-Im is deeply rooted in 
Air Tractor's experiences--with exports, Ex-Im and job creation. I will 
relate the experiences of Air Tractor, but it is a much broader and 
deeper story than that of Air Tractor. I believe that it is story of 
many small businesses across our Nation, and maybe more compelling, it 
is the promise of the vast potential that exists in this country with 
many small business that could be exporting but are not. This 
potential, when properly nurtured and developed, will yield its 
treasures of a reduced national trade deficit and most important of 
all--JOBS.
    Air Tractor is a small business engaged in the manufacture of 
agricultural and forestry fire fighting airplanes. The company has been 
in business since 1972 and is now 100 percent employee owned. We have 
one location--Olney, Texas. Olney is a small rural town located 100 
miles west of Fort Worth, Texas, and 200 miles east of Lubbock, Texas. 
The population of Olney is approximately three thousand (3,000).
    In 1994, Air Tractor started exploring the possibility of finding 
sources of financing for our end-user customers located outside of the 
United States. At that time, approximately ten percent (10 percent) of 
our annual new airplane sales (units) were delivered outside of the 
U.S. These export sales were either cash-in-advance or acceptable 
Letter of Credit. Our needs for financing were of a medium-term tenor 
(usually 5 years), and in many cases the end-user customer was a small 
business. After much searching and research, we discovered two key 
partners that would help us in our pursuit of medium term trade 
finance. These partners were a commercial bank and Ex-Im. Our first 
medium-term transaction (Ex-Im Medium Term Credit Insurance) was in 
1995 for two fire fighting aircraft sold to a customer in Spain. Since 
that first aircraft sale in Spain, we have sold approximately fifty 
(50) planes into the Spanish market--none requiring Ex-Im support. 
Since that time, we have completed over eighty (80) such medium-term 
deals through Ex-Im. For the calendar year 2010, we completely twenty 
(20) medium-term insured transactions with Ex-Im (and anticipate 30 
such deals for 2011). It is also worth noting that of those eighty plus 
transactions we have completed with Ex-Im, Air Tractor has never made a 
medium-term claim on Ex-Im. In addition to the Medium Term Credit 
Insurance product, Air Tractor has also utilized Ex-Im's Working 
Capital Guarantee Program.
    It is instructive to study the employment at Air Tractor since 2007 
and to also study our percent of export sales (aircraft units) over 
that same period. There is a definite correlation of these two factors. 
To view these numbers against the backdrop of employment in the U.S. 
for the same period brightens the light on this correlation. These 
numbers for Air Tractor are:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Thus, while the headlines throughout our country reflected a 
growing unemployment for this period, Air Tractor created jobs. For the 
period of 2007 through 2010 our employment grew 33 percent. During that 
same time period our percent of annual export sales increased 55 
percent. It is not coincidental that these two factors grew in 
lockstep. The growth of exports has been a significant contributor to 
the job growth of Air Tractor in recent years.
    The growth of exports at Air Tractor is a direct result of Ex-Im 
having programs such as the Medium Term Credit Insurance program that 
we could access to provide financing for our end-user customers outside 
of the United States. As noted previously, prior to using Ex-Im, Air 
Tractor's export percent was 10 percent. Exports have grown from the 10 
percent level (with no export finance) to 56 percent in 2010 (when we 
had twenty medium-term deals closed at Ex-Im). With 56 percent export 
sales in 2010, there are over 100 employees at Air Tractor in Olney, 
Texas, that directly owe their jobs to exporting.
    During 2010 our exports went to fourteen (14) different countries. 
That is a significant number of countries for a small business such as 
ours. However, in the scheme of worldwide sales, it reflects the many 
opportunities we have to continue expanding our international 
footprint. Our future growth is outside of the borders of the United 
States. Those opportunities are the driving force to sustain and create 
additional jobs in Olney, Texas. Air Tractor cannot fully take 
advantage of these opportunities without Ex-Im.
    As stated previously, this is not a story of Air Tractor as much as 
it is a story of the job creating force that small businesses are and 
can be when they engage in exporting. Through such entities as the 
National Small Business Association (NSBA) and its affiliate, Small 
Business Exporters Association (SBEA), both of which I am a Board 
Member, stories such as these can be documented multiple times. It is 
well reported that 95 percent of the world consumers are domiciled 
outside of the United States. As the world economy has tightened, the 
global trade arena has become more competitive. This global market 
offers the opportunities for growth and job creation, but entities such 
as Ex-Im are necessary to help businesses, especially small businesses, 
meet the competitive challenges that exist in the global arena.
    Bank Chairman Fred P. Hochberg and the current Ex-Im administration 
have done a very good job of maintaining a focus and long-term 
commitment to small business. That has not always been the case with 
other Ex-Im administrations as it relates to small business. A ``start 
and stop'' process on small business focus as Ex-Im administrations 
change is not the best way to engage more small businesses in exporting 
and job creation in our country. Thus, I recommend that the next Ex-Im 
congressional reauthorization should continue to institutionalize the 
Ex-Im small business commitment by retaining the current authorization 
language as to the minimum percent of small business approvals by Ex-
Im, defining the key roles of small business officers at Ex-Im and 
other small business provisions in the current authorization.
    There are several key provisions of the Ex-Im Charter that are very 
important and necessary to small business exporters. While the House 
bill, H.R. 2072, Securing American Jobs Through Exports Act of 2011, 
does not change the language, it also fails to even mention these 
critical provisions for small business exporters. While remaining 
unchanged, SBEA and I believe these provisions should at least be 
stated in the Findings section of any reauthorization bill. They 
include:

Sec. 2(b)(1)(E)(v)--The not less than 20 percent direct financing 
authority for small business is an absolute must for continuity of 
emphasis to small business in the long term. Leaving this clause 
unchanged is necessary and any new ``formulas'' that turn the 20 
percent into a goal rather than a mandate, or allow Ex-Im to avoid the 
mandate in certain years, should not be an option. The main objective 
is to improve direct access to Ex-Im capital by small business, year in 
and year out.

Sec. 3(d)(1)A and 3(d)(2)(A)--Language that mandates the existence of 
the Advisory Committee and the section requiring at least three members 
of that committee be representatives of small business. Representation 
on input to Ex-Im is vital for small business.

Sec. 8(b)(3)(f)--The section requiring reports to Congress if the small 
business authority percent is not met and details of how this would be 
fixed if the 20 percent is not met.

    These three sections should be retained without changes, and 
emphasized in any Ex-Im Bank reauthorization bill.
    Other ways to deepen the commitment to small business should also 
be considered. One such consideration is making the Senior Vice 
President for Small Business a member of the credit committee, who 
reports directly to the President, and is a voting member of the credit 
committee or any successor entity. The Senior Vice President must have 
a sense of the ``big picture'' in terms of how the agency reasons as it 
decides which applicants are approved, and which are declined, for 
credit worthiness reasons, and therefore must have a say in these 
decisions.
    Additionally, as Ex-Im continues to grow in both number of 
approvals and dollar volume of approvals as they have in the last 
couple of years, they will need adequate administrative budget to be 
staffed and have the electronic infrastructure to properly handle the 
growth that we should see as they continue to increase their volume of 
business.
    Furthermore, I should mention an amendment adopted by the House 
Financial Services Committee during deliberation of H.R. 2072 barring 
Ex-Im from providing assistance to companies that conduct certain 
business with Iran. In a voice vote, the committee approved an 
amendment sponsored by Reps. John Campbell (R-Calif.) and Brad Sherman 
(D-Calif.), and now goes to the full House for its consideration. 
Denying Ex-Im Bank loans, credits, or credit guarantees for U.S. 
exports to the sanctioned entity would be burdensome for small 
exporters. These type of mandates that interfere with Ex-Im's business 
puts extra constraints on small business compared to big business with 
respect to exports as it further creates controversy, confusion, and 
costs for U.S. interests.
    During 2010, Air Tractor paid over $300,000 in fees to Ex-Im for 
products we contracted with them through Ex-Im. As noted earlier we 
have never made a medium-term claim on an Ex-Im policy. This is a net 
plus for Ex-Im--revenue but no corresponding claim expense. This is not 
always the case, but as I heard Chairman Hochberg state in a speech in 
January of this year, ``The Bank makes money!'' What a wonderful 
situation--everyone wins, including the U.S. taxpayer.
    President Obama recognized the importance and the powerful impact 
of exporting on job creation when he established the National Export 
Initiative (NEI) by Executive Order signed March 11, 2010. The NEI is 
an important step in our country becoming more competitive in the 
global arena. As we do so, more jobs will be created in the United 
States. The goal to double our country's exports in 5 years may seem 
ambitious, but it can be done. Small business will play a vital part in 
meeting this goal. Ex-Im is a necessary and key entity needed for 
business--both small and large--to meet the goal of the NEI.
    Olney, Texas, is my hometown. It is a great place to live and work. 
However, when one thinks of a town originating export transactions, a 
small, west Texas town does not immediately come to mind. As I have 
described it before, Olney has three red lights and a Dairy Queen--not 
an international hub. The significance of this is that if we can create 
jobs through exporting on Main Street, Olney, Texas--anyone can do it. 
We have a great potential for job creation in this country through 
small business exporting. A very key player in that job creation 
process is Ex-Im. Thus, we would urge for the congressional 
reauthorization of Ex-Im.
    I would like to thank Chairman Warner for holding this hearing, 
bringing Ex-Im Bank to the forefront and for allowing me the 
opportunity to testify.
        RESPONSES TO WRITTEN QUESTIONS OF SENATOR SHELBY
                   FROM OSVALDO LUIS GRATACOS

Q.1. In 2008, GAO found that the lack of performance measures 
at the Bank, particularly the lack of targets to measure 
progress and the lack of time frames regarding small business 
strategies, prevent Ex-Im bank management from accurately 
monitoring and reporting progress in achieving its standards.
    Where now, in 2011, is the Inspector General's Office on 
this important finding?

A.1. Ex-Im Bank management agreed to implement GAO's 
recommendations on the lack of performance measures and time 
frames regarding small business assistance. The GAO has 
informed Ex-Im Bank OIG that GAO has been in contact with Ex-Im 
Bank management in order to close out the recommendations in 
the GAO report. GAO reports that Ex-Im Bank has been making 
progress in implementing its recommendations.
    Ex-Im Bank has made progress in revising its strategic plan 
and performance metrics for the Small Business program. In 
fiscal year 2010, the Bank was able to meet its 20 percent 
congressionally mandated target and increased its outreach to 
small businesses by attending 477 outreach events, including 
events sponsored by women-business centers, small business 
associations, and minority-focused chambers of commerce. In 
January 2011, it announced a Global Access for Small Business 
Initiative with specific goals of approving at least $30 
billion in small business transactions, supporting a cumulative 
total of approximately $58 billion in export sales, and adding 
a total of 5,000 small businesses to the Ex-Im Bank portfolio. 
Given the priority of the Small Business program within the 
Administration's National Exports Initiative, we will continue 
to monitor management's implementation of GAO's 
recommendations.
    We should note, however, that although the Small Business 
program has made progress in implementing performance metrics 
and response time targets for its products, the Bank has not 
set similar targets for the medium- and long-term structured 
products.

Q.2. Absent such performance plans, how does the Bank measure 
the costs and benefits of its initiatives?

A.2. Under 12 U.S.C. 635g and 39 U.S.C. 9106, Ex-Im Bank is 
required to issue an annual report on its operations and 
financial condition to Congress. In addition, the Bank has 
issued a strategic plan for 2010-2015 with six broad measures 
to determine whether it is making progress on its long-term 
goals. The annual report and the strategic plan, however, do 
not establish an effective and specific performance plan with 
targets and timelines to track Ex-Im Bank's program results. 
For example, in our recent audit report on the Working Capital 
Guarantee Delegated Authority Program (WCGDA) we found that Ex-
Im Bank did not maintain information on this Program to 
effectively evaluate its performance. \1\ The audit found that 
WCGDA data was not maintained separately from the non-WCGDA 
Program. Without the applicable data, it is difficult to 
evaluate the performance level of a Program to determine 
whether it is achieving its intended purpose at the lowest 
possible cost.
---------------------------------------------------------------------------
     \1\ Working Capital Guarantee Delegated Authority Program, OIG-AR-
11-04, July 8, 2011, can be found at http://exim.gov/oig/documents/
WCGDA%20final%20report%20110708.pdf.
---------------------------------------------------------------------------
    Further, under the Government Performance and Results Act 
of 1993, the Ex-Im Bank is required to submit an annual 
performance plan (APP) to the Office of Management and Budget 
as part of the budget process. On December 2, 2010, the Ex-Im 
Bank OIG issued a memorandum to Ex-Im Bank management 
requesting clarification on the application of Government 
Performance and Results Act of 1993 and the Report 
Consolidations Act of 2000 (RCA), which would allow Ex-Im Bank 
to consolidate any statutorily required reports into an annual 
Performance and Accountability Report.
    On March 16, 2011, Ex-Im Bank's General Counsel replied 
that Ex-Im Bank had elected not to consolidate reporting 
requirements under the RCA. However, the General Counsel stated 
that, commencing in FY2012, Ex-Im Bank would begin filing an 
APP in accordance with the Government Performance and Results 
Act of 1993. An APP will enable Ex-Im Bank to have a framework 
in order to measure the costs, benefits, results, and outcomes 
of its programs and initiatives.

Q.3. Would waiting for emplacement of an effective performance 
plan, before authorization of a higher level of loan 
guarantees, reduce the likelihood of loan defaults?

A.3. Well run organizations have a clear strategic and 
performance plan and Government agencies are no exceptions. It 
is therefore good practice for the Ex-Im Bank to have a 
strategic and performance plan to function efficiently and 
effectively, to monitor its performance, and to identify 
successes and shortcomings. Moreover, such a plan will enable a 
continuous improvement environment at the Ex-Im Bank. Through 
such a plan, the Ex-Im Bank may establish a goal of reducing 
loan defaults and implementing metrics to gauge its 
performance. However, the OIG believes that decreasing loan 
defaults is accomplished by establishing better risk management 
procedures, as outlined in Question 2, that are not necessarily 
made part of a strategic and performance plan.

Q.4. The Ex-Im Bank has experienced a fair number of fraud 
cases in its transactions, due in part to the lack of adequate 
risk evaluation procedures. In its most recent Semi-Annual 
Report to Congress, the Office of Inspector General identified 
Ex-Im Bank's loan guarantee and export credit insurance 
programs as being ``particularly susceptible to fraud schemes 
by foreign borrowers.''
    What variety of factors specifically make the occurrence of 
transactional fraud even more acute for Ex-Im Bank?

A.4. The loan guarantee and export credit insurance programs 
provide guarantee of payments and protection to lenders and 
exporters to promote the purchases of U.S. goods and services. 
In general, in the transactions we have investigated and 
inspected, we have uncovered that the most notable factor 
leading to the transactional fraud was that neither lenders nor 
Ex-Im Bank are conducting effective due diligence on borrowers 
and buyers. This is mainly due to the fact that the Ex-Im 
Bank's Master Guarantee Agreement does not require lenders to 
conduct a sufficient level of due diligence on the parties to 
the transaction as they would a non- Ex-Im Bank transaction. In 
addition, the 100 percent threshold guarantee creates a ``moral 
hazard'' for the lender as it insulates the lender from the 
risk of loss on the transaction (no skin in the game) and 
eliminates a financial incentive to perform adequate due 
diligence.
    One of the observations from the cases investigated is that 
the lender does not truly ``know its client'' in many 
transactions. This allows exporters or agents to orchestrate 
the fraud by finding willing borrowers and submitting, for 
example, false identity papers, applications, and financial 
statements to approve the transaction. In short, there is a 
lack of verification of the existence of the borrower, the 
transaction sourcing agent, the exporter, and the U.S.-based 
supplier.
    In addition, our investigations and inspections have found 
that in many cases there has been no effective verification of 
material documents to the transaction (Receipt of Downpayment, 
Invoices, Shipping Documents, Customs Documents, and Exporter's 
Certificate) by the lender and Ex-Im Bank until after the loan 
defaults. This presents an opportunity for exporters or agents 
to falsify these documents. Once these documents have been 
provided to the lender, the loan proceeds are disbursed. A 
significant amount of time may pass before the loan defaults 
which triggers Ex-Im Bank's responsibility to pay the claim and 
start recovery efforts.
    Another factor that may contribute to this problem is the 
low number of underwriters or loan officers at Ex-Im Bank 
relative to the increasing size of the Bank's total asset 
exposure. Over the past 5 years, Ex-Im Bank has witnessed 
significant asset growth with total exposure growing by 30 
percent to $75 billion as of FY2010 and is on target to break a 
record in FY2011. Ex-Im Bank has achieved this increase with 
basically the same staffing level for the past decade. This 
increase in workload undertaken by the same level of staffing 
may contribute to diminished oversight, due diligence, and 
resulting high default rates.

Q.5. What is the instance of fraud occurring in the Medium Term 
Loan Program, and what procedures need to be improved to 
mitigate the risk of fraud?

A.5. We currently have 311 Medium Term (MT) program claims 
worth $337,296,551 under investigation.
    On March 30, 2009, Protiviti, an OIG contractor, made 
several, specific recommendations in an audit concerning credit 
and fraud risk management in the MT program. \2\ Among them, 
Protiviti recommended that (1) Ex-Im Bank strengthen its credit 
underwriting due diligence by requiring lenders to do on-site 
inspections and appraisals of equipment being exported as well 
as obtain bank/brokerage statements of obligors and guarantors 
for MT transactions; (2) institute an effective early warning/
delinquency and performance reporting system by requiring a 
standardized process for lenders to report borrower payment 
history; and (3) institute a independent, formal lender 
oversight function that can effectively oversee transaction due 
diligence guidelines or requirements, and a quality assurance 
function that can manage and monitor performance of transaction 
participants, such as agents and appraisers. On July 7, 2010, 
Protiviti issued a follow-up of audit recommendations of this 
report and found that the Bank had taken necessary actions to 
establish appropriate controls in most of the areas that needed 
strengthening. \3\
---------------------------------------------------------------------------
     \2\ Medium-Term Export Credit Program-Credit Risk and Fraud 
Management Business Process Improvement, OIG-AR-09-04, March 30, 2009, 
can be found at http://exim.gov/oig/documents/
MT_Program_Business_Process_Final_Audit_Report.pdf.
     \3\ Follow-Up of Audit Recommendations Reported in Medium Term 
Export Credit Program--Credit and Fraud Risk Management and Business 
Process Improvement, Evaluation Report OIG-EV-10-02, can be found at 
http://exim.gov/oig/documents/
Follow_Up_of_Audit_Recommendations_10_02.pdf.
---------------------------------------------------------------------------
    In more general terms, as a result of our fraud 
investigations and inspections, we have determined that Ex-Im 
Bank may be able to mitigate fraud by implementing a 
comprehensive list of mandatory due diligence steps that must 
be performed by the lender and Ex-Im Bank. For example, such 
steps may include, but are not limited to: (1) the lender and 
Ex-Im Bank conducting minimal corporate registration and credit 
checks on the Borrower, the Sourcing Agent for the transaction, 
the Exporter, and the Supplier; (2) the lender and Ex-Im Bank 
contacting the borrower to review the terms of the credit; (3) 
the lender verifying the borrower's references and financial 
statements; and (4) the lender verifying all material documents 
to the transaction prior to the loan's disbursement.

Q.6. How much of the managerial challenges faced by Ex-Im Bank 
can be attributed to an inefficient and ineffective IT 
platform?

A.6. Ex-Im Bank has significant managerial challenges due to an 
inefficient and ineffective IT platform. For example, on June 
12, 2009, Protiviti, an OIG contractor, issued an audit of the 
MT Program's IT Systems, Support and Governance. \4\ The audit 
was initiated at the request of then Chairman James L. 
Lambright based on questions raised regarding the efficiency 
and effectiveness of IT support for the Bank's MT program in 
view of adverse economic results of the MT program and user 
complaints regarding slow response times. The audit found that 
the Bank had not provided adequate IT program support and 
governance of the MT program. Significant enhancements to the 
Bank's processes for identifying strategic priorities, setting 
goals, developing plans to achieve them, supporting business 
process and system development and allocating IT resources 
would be required in order to improve functional support for 
the MT program and create reasonable accountability for 
realizing management's objectives. On June 30, 2010, Protiviti 
issued an evaluation report as a follow up to this audit and 
found that the Bank had taken the necessary actions to 
establish appropriate controls in most of the areas that needed 
strengthening in the MT program. \5\
---------------------------------------------------------------------------
     \4\ Medium Term Export Credit Program-Information Technology (IT) 
Systems, Support and Governance, OIG-AR-09-05, June 12, 2009, can be 
found at http://exim.gov/oig/documents/MTITauditreportfinal.pdf.
     \5\ Follow-Up of Audit Recommendations Reported In Medium Term 
Export Credit Program--Information Technology (IT) Systems, Support and 
Governance, Evaluation Report OIG-EV-10-01, can be found at http://
exim.gov/oig/documents/OIG_EV_10_01.pdf.
---------------------------------------------------------------------------
    In addition, audits we have conducted found the Ex-Im Bank 
IT systems are not flexible, queries are not robust and 
accuracy of data is not always reliable. Because of the above 
deficiencies, the OIG and its contractors primarily rely on 
manually controlled data when conducting audits. We are 
currently conducting an audit to determine whether Ex-Im Bank 
is minimizing the cost and maximizing the usefulness of its key 
IT systems to meet Ex-Im Bank's mission. We will share the 
results of this audit with the Committee as soon as it is 
completed.

Q.7. The subsidy or loss rates in the Medium Term Loan Program 
are positive, whereas the rates for the Long Term Loan Program 
and the Short Term Working Capital program are net negative and 
near-zero, respectively. What accounts for the difference in 
performance in the Medium Term program?

A.7. The subsidy rates differ because the MT program presents 
enhanced risks not present in the Long-Term and Short-Term 
programs represented by the historical levels of defaults.
    The difference in default rates between the Medium and 
Long-Term programs can also be attributed to the fact that most 
of the Long-Term deals are either aircraft or project 
financings that are highly structured with strong collateral 
while many of the MT deals have been done on an unsecured 
basis, with less due diligence up front.
    In our 2009 audit of the credit and fraud risk management 
of the MT program referenced above, Protiviti found that the 
Ex-Im Bank encountered significant credit and fraud loss, 
process efficiency challenges and IT issues because the Bank 
had not developed customized policies, controls, systems, and 
tools to address the enhanced risks of the MT program. The MT 
program is a high-risk program that responds to the Bank's 
mission of making export financing available where the private 
sector is unable or unwilling to do so and only requires a 
reasonable assurance of repayment. However, actions that would 
typically be taken by a high-risk lender in the private sector 
to effectively manage credit and fraud risk, and which are 
recommended or required by the Office of Management and 
Budget's Circular A-129-Policies for Federal Credit Programs 
and Non-Tax Receivables, have not been consistently required 
elements of the MT program.
              Additional Material Supplied for the Record
 STATEMENT SUBMITTED BY THEA MEI LEE, DEPUTY CHIEF OF STAFF, AMERICAN 
      FEDERATION OF LABOR AND CONGRESS OF INDUSTRIAL ORGANIZATIONS
    I appreciate the opportunity to submit testimony on behalf of the 
twelve and a half million working men and women of the AFL-CIO on the 
reauthorization of the Export-Import Bank, and how best to maximize the 
positive impact of the Ex-Im Bank's actions on American jobs and 
exports.
    I have had the privilege to serve on the Ex-Im Bank's Advisory 
Committee as a representative of labor for more than a decade, so I 
have seen at close range the breadth of support provided by the Ex-Im 
Bank to American exporters, as well as the growth and development of 
the organization over that period of time. I would like to take a 
moment to commend Chairman Fred Hochberg for his leadership of Ex-Im 
Bank and for his unwavering dedication to supporting a strong U.S. 
export sector and American jobs.
    The AFL-CIO supports President Obama's goal of doubling U.S. 
exports by 2015, and we appreciate the financial support that Ex-Im 
Bank has provided to help reach that goal, especially in the wake of 
the financial crisis. Ex-Im Bank's record of increasing its export 
financing by 70 percent since 2008 is commendable and reflects hard 
work by the leadership and staff, increased outreach to potential 
exporters, and some streamlining of procedures, among other things. The 
success of Ex-Im Bank in substantially increasing its export financing 
in recent years certainly appears to indicate that exporters find Ex-Im 
Bank financing attractive and competitive relative to other available 
options.
    But it is important to keep in mind that the ultimate goal of Ex-Im 
Bank is not just to make more loans, but to support U.S. jobs through 
increased exports. As Section 2 of the Bank's 2002 Reauthorization 
makes clear: ``The Bank's objective in authorizing loans, guarantees, 
insurance, and credits shall be to contribute to maintaining or 
increasing employment of United States workers.''
    Ex-Im financing provides exporters support that is in general more 
accessible or more attractive than that available through private 
channels. While Ex-Im Bank is self-financing, the full faith and credit 
of the U.S. Government supports Ex-Im loans and makes possible the 
favorable terms that make Ex-Im Bank loans attractive to exporters.
    The U.S. Congress, in its periodic reauthorization of the Ex-Im 
Bank, has an opportunity to ensure that Ex-Im financing is meeting its 
ultimate policy goal of supporting American jobs. The role of the 
Congress is essential in maintaining the integrity and the public-
policy mission of the Ex-Im Bank. The Bank is under constant pressure 
from its clients, the companies that use Ex-Im Bank services, to weaken 
the policy constraints that are in place, in order to facilitate more 
loans on easier terms with fewer strings attached. Congress can and 
should represent broader American interests than just the profit motive 
of exporting corporations.
    The three ``policy provisions'' of Ex-Im Bank that often come under 
sharp criticism from exporting companies are the domestic content 
guidelines (limiting Ex-Im Bank financing mainly to U.S.-produced goods 
and services), the economic impact requirement (ensuring that Ex-Im 
Bank loans do not undermine U.S. jobs or circumvent U.S. trade laws), 
and the U.S. shipping requirements. All of these create some 
inconveniences for exporting companies, but serve important public 
policy purposes for the United States.
    The proposed legislation that the House of Representatives has 
proposed, ``Securing American Jobs Through Exports Act of 2011'', 
reauthorizes the Ex-Im Bank through 2015 and increases its exposure cap 
to $160 billion over the next 3 years. The AFL-CIO supports the 
reauthorization of Ex-Im Bank and the expansion of available financing.
    Unfortunately, the proposed legislation also alters the Bank's 
procedures for establishing domestic content guidelines in a way that 
could weaken content requirements and undermine U.S. jobs. We strongly 
oppose the inclusion of Section 5 in the legislation and urge the 
Senate to drop that provision from the bill.
    Rather than attempting to weaken Ex-Im Bank's domestic content 
policies, any reauthorization legislation should instead clarify the 
content policies and make them more transparent, particularly with 
respect to how domestic content is calculated and what it includes.
    In addition, we would like to see the economic impact provisions 
strengthened and clarified. There is no evidence that the current 
economic impact requirements are undermining the competitiveness of Ex-
Im Bank or posing an undue burden on exporters, contrary to some recent 
testimony in this Subcommittee.
    In 2008, 2009, and 2010, very few transactions were required to 
undergo detailed economic impact analysis--10, 7, and 8 respectively, 
according to the draft 2010 Ex-Im Bank Competitiveness Report. Of 
those, the majority were withdrawn for reasons having nothing to do 
with the economic impact requirement. Of the remaining handful of 
transactions, none in the last 3 years were denied because of the 
economic impact requirement. It should not be asking too much of 
companies that receive Ex-Im financing to report the likely impact of 
their transaction on U.S. jobs and production, especially where a 
global excess supply exists (as in steel) or a trade case is pending.
    Another area where Ex-Im Bank policies could be improved relates to 
foreign export credits. The current charter lays out two situations in 
which the Bank can match foreign export credits. Under Section 
10(b)(1)(A), Ex-Im can match credits if there is a reasonable 
expectation that a competitor will provide aid in violation of the 
arrangement or aid that, while technically in compliance with the 
arrangement, may require matching because it is grandfathered. Section 
10(b)(1)(B) allows matching for exports to countries which are actual 
or potential export markets for countries that: (i) engage in predatory 
financing and either impede negotiations or violate the arrangement; or 
(ii) engage in predatory financing that seeks to circumvent agreements 
on tied aid. The section could be amended to add another category to 
this provision for any financing provided by a country that is not a 
member of the arrangement. This could simplify matters by eliminating 
the need to show that the country is violating the terms of the 
arrangement, impeding negotiations, or seeking to circumvent the 
arrangement.
    Finally, an important challenge to Ex-Im Bank and the other OECD 
ECAs comes from the rise of China's Ex-Im Bank, which is rapidly 
increasing its export finance and is in egregious violation of WTO 
rules. The AFL-CIO would like to see our Government take more forceful 
action through the WTO to confront these violations, which are 
undermining American exporters and workers.
    Export credits are prohibited export subsidies under WTO rules, but 
there is a safe harbor in WTO rules that permits countries to provide 
export credits that comply with the interest rate and maturity terms of 
the OECD Arrangement on Export Credits. An export credit agency does 
not need to be a member of the OECD arrangement to benefit from this 
safe harbor, it just needs to bring its export credits into compliance 
with the OECD terms in practice. China has been invited to accede to 
the OECD arrangement but has refused to do so.
    China's ECA is now one of the largest in the world, and it is 
blatantly flouting the basic rules export credit agencies agreed to 
decades ago, without any challenge. China's Ex-Im Bank is apparently 
granting loans with interest rates of 1 to 2 percent and repayment 
terms as long as 20 years, as well as special discounted credits that 
go directly to exporters in priority sectors such as high technology 
(including green technology). China's Ex-Im Bank explicitly advertises 
these credits as being available at below-market rates. Since China's 
export credits are not in compliance with OECD rules, they are 
prohibited export subsidies under WTO rules. We urge our Government to 
bring a WTO challenge, as the United Steelworkers union has documented 
in its Section 301 case, to ensure that China come into compliance with 
international rules in this important area.
    I thank you for your attention and look forward to your questions.
                                 ______
                                 
    STATEMENT SUBMITTED BY OWEN E. HERRNSTADT, DIRECTOR, TRADE AND 
 GLOBALIZATION, INTERNATIONAL ASSOCIATION OF MACHINISTS AND AEROSPACE 
                                WORKERS
    The International Association of Machinists and Aerospace Workers, 
(IAM) AFL-CIO, represents several hundred thousand active and retired 
members throughout North America. Our members work in a variety of 
manufacturing industries including aerospace, electronics, defense, 
shipbuilding, transportation, and woodworking. Given the nature of 
these industries and the IAM's membership, the IAM truly understands 
the importance of manufacturing to our Nation's economic and physical 
security. We also understand that strong U.S. exports, which are 
directly related to creating and sustaining jobs here at home, are a 
key to our success in restoring our economy and building a prosperous 
and sustainable future.
    The United States Export-Import Bank (the Bank) exists to promote 
U.S. exports that create and sustain good manufacturing jobs here at 
home, not in other countries. It fulfills its mission by providing U.S. 
exporters with more favorable financing than they could obtain 
privately if they meet various public policies. One of those policies 
encourages exporters to manufacture products for export in the U.S. by 
providing support for the domestic content that is included in the 
product. Proposals to require the Bank to lend greater financial 
support for the foreign content of U.S. exports is contrary to the 
Bank's mission to support the creation and maintenance of jobs in the 
U.S. and should be rejected. If these proposals were adopted, Congress 
and the Bank would be providing U.S. exporters with a greater incentive 
to produce their products in other countries.
    Instead of weakening the Bank's mission to support U.S. jobs by 
offering greater support to U.S. exporters who are increasingly 
transferring U.S. jobs to other countries, efforts should be undertaken 
to strengthen the Bank's ability to satisfy its policy objectives. 
Among other things, the Bank should be encouraged to adopt a method for 
precisely calculating the number of U.S. jobs it supports through its 
financing. The Bank currently extrapolates job estimates based on the 
value of exports it promotes.
    One of the problems with the extrapolation method is that it 
presumes the entire export is produced by U.S. workers. Moreover, 
current job estimates do not reveal with any precision the kind of jobs 
that are created or supported nor do they indicate their duration or 
where they are geographically located. Additionally, since the Bank 
supports a limited percentage of foreign content and ``local'' costs 
(derived from work performed in the country that receives the export), 
it would be helpful to know how many foreign jobs are created or 
supported by the Bank's financial support.
    This employment information should be reflected in the Bank's 
economic impact review, which should be applied more broadly to cover 
projects that are less than $10 million. Expanding the application of 
detailed economic impact reviews should not be too burdensome; 
currently the Bank only applies detailed analysis is to less than 10 
projects a year. In 2008, zero projects underwent a detailed analysis.
    We encourage the Bank to adopt domestic content standards that 
strictly reflect the direct costs of U.S. production, including 
manufacturing costs, parts, components, materials and supplies for all 
of its transactions We also urge the Bank to review standards that 
reflect the Federal Trade Commission's understanding of what 
domestically made products mean. According to the FTC: ``For a product 
to be called Made in USA, or claimed to be of domestic origin without 
qualifications or limits on the claim, the product must be `all or 
virtually all' made in the U.S . . . `All or virtually all' means that 
all significant parts and processing that go into the product must be 
of U.S. origin. That is, the product should contain no--negligible--
foreign content.''
    Suggestions that the Bank include indirect costs in calculating 
domestic content should be outright rejected. Including marketing, the 
value of intellectual property/patent rights, property related to 
research and development, and CEO pay is simply inappropriate. 
Inclusion of these factors dilutes the real domestic content of a 
product. These factors could also be manipulated by some exporters by 
enabling them to produce a greater percentage of their product in other 
countries without decreasing the domestic content that they currently 
claim for their products.
    Some exporters argue that obtaining a sale with greater foreign 
content is better for U.S. workers than losing the sale itself. We have 
yet to see solid empirical support for this statement. In contrast, 
industries that were once the bedrock of U.S. manufacturing like 
machine tool, electronics, shipbuilding and many others have been 
decimated, in part, because U.S. production has been shifted to other 
countries to secure the sale of those products. Even leading edge 
industries like aerospace have declined as U.S. aerospace industries 
transferred technology and production to other countries. The European 
aerospace industry, which has been a great recipient of transferred 
aerospace work, is a strong competitor of the U.S. aerospace industry. 
In addition, given all of the aerospace production that has been 
transferred to China, in large part to penetrate its market, it should 
be little surprise that China now seeks to enter the large commercial 
aircraft industry.
    While some exporters also argue that the public policies that 
create the Bank's mission must be weakened so that the Bank can become 
more competitive, the fact remains that the Bank continues to fund a 
record amount of projects. The question over competitiveness seems to 
be misdirected as well. Shouldn't the real question be how other export 
credit agencies are competitive with meeting the Bank's overall mission 
to support exports that create and maintain domestic jobs? This would 
require an analysis of how other countries are pursuing domestic 
employment in manufacturing through their export credit banks and other 
national policies.
    Now more than ever, we need to make certain that the Bank is as 
effective as possible in meeting its mission to support exports that 
create and maintain U.S. jobs. Strengthening the Bank's domestic 
content policies and bolstering its economic impact analysis is a 
critical component in this endeavor. Proposals that would permit the 
Bank to support greater levels of foreign content in a U.S. product, 
under cuts the Bank's mission. If adopted, they would give greater 
incentive for companies receiving the Bank's support to further 
outsource U.S. production to other countries. We urge you to strengthen 
the Bank's public policy goals to create jobs here at home, and reject 
any attempt to weaken them.
                                 ______
                                 
JOINT STATEMENT SUBMITTED BY AMERICAN APPAREL AND FOOTWEAR ASSOCIATION, 
 NATIONAL COTTON COUNCIL, AND NATIONAL COUNCIL OF TEXTILE ORGANIZATIONS
    Thank you for providing the above organizations the opportunity to 
submit comments regarding stakeholder perspectives on the Export-Import 
Bank of the United States and the pending reauthorization of the Bank. 
Our organizations strongly believe that today's hearing will help the 
Committee better understand how the Export-Import Bank (Ex-Im Bank) can 
better address the needs of U.S. companies in a globally competitive 
environment while also creating U.S. jobs.
    The Ex-Im Bank could and should play a critical role in supporting 
and expanding U.S. jobs in the U.S. textile industry and in turn 
anchoring a strong Western Hemisphere textile and apparel supply chain. 
Regrettably, the Ex-Im Bank has failed to fulfill this role because the 
structure of Ex-Im Bank loans and guarantees do not reflect either the 
realities of the apparel and textile supply chain, U.S. trade policy, 
or today's global supply chains in general.
    At the direction of U.S. trade policy, the textile and apparel 
supply chain has developed across the Western Hemisphere and has 
evolved into a mutually beneficial relationship for both U.S. cotton 
growers and U.S. textile manufacturers as well as U.S. apparel 
importers.
    The Free Trade Agreements and preference program areas in this 
Hemisphere for the most part grant duty-free access to the U.S. market 
for apparel assembled in the region as long as the apparel is made, 
either entirely or in part, from U.S.-grown cotton and U.S.-made yarn 
and fabric. As a result, all parties in the supply chain benefit--from 
U.S. cotton growers, U.S. yarn and fabric manufacturers, to apparel 
manufacturers in the region and ultimately the U.S. apparel brands and 
retailers. All parties are positioned to reap the benefits of U.S. 
trade policy. However, the supply chain is missing the necessary 
ingredient--reliable supply chain financing.
    Prior to this reauthorization, the Ex-Im Bank did very little to 
support supply chain financing, which, in turn, has had the practical 
effect of suffocating domestic capital investment and job creation. 
Traditionally, the Bank has only considered the creditworthiness of the 
producer receiving U.S. textile industry exports and has failed to 
acknowledge that these components, once exported to Central and South 
America, return to the United States--to major U.S. brands and 
retailers--as finished goods. This policy has limited the financing 
opportunities at the Bank for the U.S. textile industry.
    Ex-Im Bank financing would facilitate and grow the Western 
Hemisphere apparel and textile supply chain by increasing the 
incentives for U.S. apparel brands and retailers to increase their 
sourcing from the region because such financing would make access to 
the U.S. cotton and textiles necessary to obtain the benefits under the 
various free trade agreements and preference programs easier, faster 
and more reliable. As a result, Ex-Im Bank financing would lead to 
increased exports of U.S. cotton, yarn, and fabric to the region. Those 
increased exports would support and grow U.S. jobs.
U.S. Government--``You Should Export to the Region, but We Won't Help 
        You''
    The Ex-Im Bank bases much of its financing decisions on country 
risk. In the case of the Western Hemisphere apparel and textile supply 
chain, this ``Country Limitation'' policy outright eliminates the 
possibility of financing for some countries and severely restricts 
financing and/or significantly increases the interest rates for many 
others that are integral to this supply chain.
    As a result, the U.S. Government strongly encourages U.S. textile 
manufacturers to export their products to Central America and the 
Dominican Republic through the incentives it negotiated through CAFTA-
DR while at the same time saying that financing U.S. exports to half of 
the CAFTA-DR countries is too high of a risk to provide anything but 
the most limited loans and loan guarantees, at high interest rates to 
boot. For Haiti, a country that the U.S. Congress has deemed a priority 
through passage of the HOPE and HELP trade preference programs, the Ex-
Im Bank basically says the country is off limits.
Improving Products to Better Provide ``Supply Chain Financing''
    While the amount of paperwork and the timeline for approval remain 
major barriers preventing any small business from utilizing Export-
Import Bank programs, for the Western Hemisphere apparel and textile 
supply chain we believe that the Export-Import Bank must adapt to 
today's global supply chain. As in textiles and apparel, the United 
States doesn't just export final manufactured products anymore. Exports 
of U.S.-made goods today are just one part of a global supply chain. In 
our industry, U.S. exports of cotton, yarn, or fabric, return to the 
United States as finished apparel or home goods. The programs offered 
by the Export-Import Bank should reflect these realities.
House Bill Includes Textile Amendment To Help Address Industry 
        Financing Concerns
    The House Financial Services Committee recognized the evolution of 
the textile and apparel industry global supply chain. Essential 
legislative text was included in the version of H.R. 2072 approved by 
the Committee on June 22, 2011, that would address three important 
issues: Bank Advisory Committee representation, reviewing the 
industry's use of Bank products and why or why not they are being used, 
and promoting Bank financing of transactions for the textile and 
apparel industry.
    The legislative text is explained in more detail below and our 
organizations urge the Senate Banking, Housing, and Urban Affairs 
Committee to adopt similar language.

  1.  Representation on Bank Advisory Committee: The textile industry 
        will be included in the list of those to be represented by 
        Advisory Committee members. The charter will read: ``Sec. 
        3(d)(1)(B). Such members shall be broadly representative of 
        environment, production, commerce, finance agriculture, labor, 
        services, State government, and the textile industry.''

  2.  Textile Industry Use of Bank Products--Analysis: The Bank will 
        conduct an analysis of textile and apparel industry use of the 
        Bank products, examining the impediments to the industry's use 
        of the Bank as well as then number of U.S. jobs supported by 
        the industry, and make proposals for how the Bank could provide 
        financing to meet the needs of the industry, including 
        proposals for new products. Within 180 days, the Bank will be 
        required to submit a report to Congress that contains the 
        results of the study.

  3.  Promotion of Industry Financing by the Advisory Committee: The 
        Advisory Committee will be required to consider ways to promote 
        Bank financing of transactions for the textile industry, 
        consistent with the requirement that the Bank obtain a 
        reasonable assurance of repayment, and determine ways to 
        increase Bank support for exports of textile components or 
        inputs; and increase Bank support for the maintenance, 
        promotion and expansion of jobs in the United States that are 
        critical to the manufacture of textile components and inputs.

  4.  Annual Report: The determinations made by the Advisory Committee 
        would be included in the Bank's annual report. In addition, the 
        Bank would be required to report on the success of the Bank in 
        providing effective and reasonable priced financing to U.S. 
        textile and apparel industry for exports of goods manufactured 
        in the United States and steps the bank has taken to increase 
        the use of Bank products.

    It is our belief that the legislative text as included by the 
Financial Services Committee would be a great first step towards 
bringing much needed liquidity to the Western Hemisphere supply chain 
at a time when major brands and retailers are considering shifting 
sourcing back to this region of the world.
Conclusion
    Thank you again for holding a hearing on this important issue. We 
believe that a combination of changes in both Export-Import Bank 
policies and programs will position the Export-Import Bank to truly 
assist U.S. companies, particularly small businesses, and the hundreds 
of thousands of U.S. workers they employ, that play a critical role in 
today's global supply chains. We would be happy to discuss any of the 
above points in more detail with the Subcommittee.
   STATEMENT SUBMITTED BY AIR TRANSPORT ASSOCIATION OF AMERICA, INC.
    The Air Transport Association of America (ATA) appreciates this 
opportunity to present the perspective of the leading U.S. airlines on 
the proposed reauthorization of the U.S. Export-Import Bank. \1\ U.S. 
airlines are major contributors to U.S. service exports, and strongly 
support President Obama's National Export Initiative (NEI). The 
Administration correctly emphasizes that achieving the ambitious goals 
of the NEI will require contributions from U.S. service as well as 
manufacturing industries.
---------------------------------------------------------------------------
     \1\ ATA is the principal trade and service organization of the 
U.S. scheduled airline industry. The members of the association are: 
ABX Air, Inc.; AirTran Airways; Alaska Airlines, Inc.; American 
Airlines, Inc.; ASTAR Air Cargo, Inc.; Atlas Air, Inc.; Continental 
Airlines, Inc.; Delta Air Lines, Inc.; Evergreen International 
Airlines, Inc.; Federal Express Corporation; Hawaiian Airlines; JetBlue 
Airways Corp.; Southwest Airlines Co.; United Airlines, Inc.; UPS 
Airlines; and US Airways, Inc.
---------------------------------------------------------------------------
    Export credit made available through the Export-Import Bank can 
play an important and appropriate role in supporting U.S. exports. ATA 
thus supports reauthorization of the Bank.
    ATA members are not eligible for--and do not seek--export credit 
made available through the Export-Import Bank. Nevertheless, they have 
a vital stake in the Bank's activities. The facts are that nearly one-
half of the value of all guarantees issued by the Bank subsidize 
acquisitions of large civil aircraft by foreign airlines, providing 
those airlines with a significant competitive advantage, which they 
have used to capture more than 50 percent of the international traffic 
serving the United States.
    Almost all of these guarantees support sales by the Boeing Company, 
and that level of support is roughly matched by similarly guaranteed 
financing by European export credit agencies in support of sales by 
Airbus. The major beneficiaries of such credit support include the 
world's most profitable airlines outside of the United States and the 
Airbus home countries of France, Germany, and the United Kingdom.
    Consequently, as Congress considers the Bank's reauthorization--
particularly, proposals to vastly increase the ceiling on the Bank's 
authorized financing commitments--it is essential to examine closely 
the facts surrounding the Bank's financing activities. The Committee 
should carefully appraise the consequences of the Bank's work for U.S. 
companies and workers who compete with beneficiaries of U.S. 
Government-guaranteed loans and loan guarantees. The Congress must 
ensure that reauthorization of the Bank does not simply result in a 
trade-off between more jobs supported by Government subsidies and more 
jobs lost by U.S. companies that compete with the foreign beneficiaries 
of those subsidies.
Summary
    With respect specifically to the air transport industry, ATA wishes 
to make the following points:

  <bullet>  Commercial aviation is a pillar of the U.S. economy. U.S. 
        passenger and cargo airlines directly employ 572,000 workers, 
        and the industry more broadly supports millions of jobs. Yet, 
        export credits provided by the Bank have a real and adverse 
        impact on U.S. airlines.

  <bullet>  Those credits support sales of large civil aircraft to 
        foreign airlines that compete with U.S. airlines, and that do 
        not need Government credit support.

  <bullet>  The recently renegotiated Aircraft Sector Understanding 
        (ASU) made a good start toward lessening the market distortions 
        caused by subsidies provided by Government-backed Export Credit 
        Agencies (ECAs), such as the Export-Import Bank and its foreign 
        counterparts. It is essential, however, for the United States 
        to press forward on a multilateral basis to achieve even 
        greater global discipline over these subsidies.

  <bullet>  To support ASU negotiations and to ensure that Congress and 
        U.S. taxpayers understand the nature and level of the billions 
        of dollars of Government support in this one sector, any 
        reauthorization of the Export-Import Bank should require the 
        Bank to make public increased and more consistent information, 
        in a timely manner, about the terms and extent of export 
        credits offered to support purchases of large civil aircraft.

    Attachment 1 to this Statement is a letter sent by ATA to Secretary 
of the Treasury Geithner and other senior Administration officials on 
August 16, 2010. This letter explains the concerns of U.S. airlines 
about the explosive growth in support by the Export-Import Bank and its 
European counterparts for sales of large civil aircraft. The following 
comments refer to the facts set forth in that letter while describing 
recent developments for the Subcommittee and a modest proposal to 
increase the transparency of the Bank's large civil-aircraft financing 
activities.
The Airline Industry Is a Crucial Sector of the U.S. Economy
    As set forth in the August 16 letter, commercial aviation is one of 
the pillars of the U.S. economy. According to the Federal Aviation 
Administration (FAA), commercial aviation drives approximately $1.2 
trillion in annual economic activity in the United States and is 
responsible for 10.9 million U.S. jobs. This is roughly 5.2 percent of 
our Gross Domestic Product (GDP). Every $1 million of commercial 
aviation activity generates 24.6 jobs.
    The airline industry is an integral part of this picture. According 
to ``The Economic Impact of Civil Aviation on the U.S. Economy'', 
published by the FAA in December 2009, nearly half of the Americans 
employed directly in commercial aviation are employed by U.S. airlines. 
While operating more than 10 million flights in 2010, U.S. airlines 
enplaned an average of two million passengers and 50,000 tons of cargo 
per day. Exports by air in 2010 topped $392 billion in value. In short, 
the industry is a powerful creator of jobs throughout the U.S. economy. 
Every 100 airline jobs help support some 388 jobs outside of the 
airline industry.
Subsidy Support for Foreign Airline Competition
    As a result of the ``Open Skies'' international aviation policy 
pursued by the United States over the past two decades, international 
passenger and cargo service involving the United States has largely 
been deregulated. Foreign airlines now operate more than 50 percent of 
the passenger capacity on routes to and from the United States.
    U.S. airlines strongly support the Open Skies policy and welcome 
the foreign competition. It has become increasingly clear, however, 
that official export credits are significantly distorting the 
conditions of competition in the airline industry, resulting in a 
severe competitive disadvantage to U.S. airlines.
    As shown in Attachment 2 to this Statement, over the past decade 
(FY2001-FY2010), the Export-Import Bank issued guarantees totaling more 
than $49 billion, supporting sales of 835 aircraft. The amount of 
financing accelerated through those years. In FY2009 and FY2010, the 
Bank provided guarantees of $8.6 billion and $7.2 billion, 
respectively. At the end of FY2010, the Bank's exposure to the airline 
transportation sector exceeded $35 billion--nearly half (47 percent) of 
the Bank's total exposure.
    It is important to note that Export-Import Bank support for exports 
of U.S. large civil aircraft is matched by its European counterparts' 
support of Airbus sales. The United Kingdom's Export Credits Guarantee 
Department (ECGD) provided guaranteed financing of approximately 
<brit-pound>294 million for Airbus sales during its fiscal years 2001-
2010. Although not publicly available, the amounts of official export 
credits extended by France and Germany in support of Airbus most likely 
matched or exceeded that of ECGD, as the three countries all are ``home 
countries'' for Airbus and support the same sales.
    Another startling fact about ECA financing is that the major 
beneficiaries do not need it. Those beneficiaries include 9 of the 10 
most profitable airlines based outside of the United States and the 
three European Airbus countries. Many of those airlines have credit 
ratings equal to or exceeding the ratings of U.S. airlines. They can 
access commercial credit markets on at least as favorable terms as the 
U.S. airlines. Yet, for comparable financings, Export-Import Bank 
credit support will yield significantly more favorable terms and loan 
proceeds for the foreign airlines.
    As noted in the August 16 letter, the damage caused by subsidized 
financing is particularly acute during declines in the business cycle, 
because ECA credits and guarantees immunize borrowers from market 
conditions. During the recent economic downturn, U.S. airlines cut 
capacity by 8 percent and were forced to lay off thousands of 
employees; yet, large aircraft production remained at record highs and 
the large aircraft market grew by more than 10 percent. This happened 
because the ECAs stepped in to help many foreign airlines to expand and 
to modernize their fleets. ATA estimates that U.S. and European export 
credits have resulted in the subsidized foreign carriers acquiring at 
least 11 percent more capacity than if they had to pay market rates.
    From a U.S. airline perspective, the export credit-supported 
competition among Boeing and Airbus amounts to a subsidy war that is 
comparable to the dispute over aircraft launch subsidies that the 
United States and the European Union have carried to the World Trade 
Organization. The subsidies simply occur further along the sales chain. 
The export credits make aircraft artificially cheap for the foreign 
beneficiaries, contributing to capacity unconstrained by market 
conditions.
The Aircraft Sector Understanding
    The current market distortion caused by ECA credits may only worsen 
as Canada, Brazil, China, and possibly other countries ramp up support 
for civil-aircraft exports in competition with Boeing and Airbus. The 
future competitiveness of the U.S. airline industry and the jobs of 
hundreds of thousands of its employees, will be adversely impacted by 
massive increases in capacity acquired cheaply by foreign airlines, 
unless the United States succeeds in negotiating a mutual cease fire.
    ATA applauds the progress achieved by the Administration toward 
this goal during the recent renegotiation of the OECD Aircraft Sector 
Understanding (ASU). The new ASU, which became effective earlier this 
year, will not eliminate the unjustified subsidization of foreign 
airline competitors of U.S. airlines. It will, however, close the gap 
by moving the ASU minimum terms closer to commercial market terms.
    The ASU calls for periodic review and adjustment of its terms to 
reflect market conditions. ATA supports aggressive monitoring by the 
Treasury Department and other concerned agencies to ensure that ASU 
members adhere to the Agreement. While the new ASU has a minimum 3-year 
term, the Administration also should initiate early negotiations to 
bring China and other emerging exporters into the agreement and to 
tighten the minimum terms still further. Ultimately, the ASU should 
ensure that Government-provided export credits are only available as 
limited ``backstop'' financing, not as first-recourse loan sources and 
not as subsidies for financially sound foreign airlines, as is the case 
today.
Increasing Transparency
    On April 14, 2011, Panamanian airline company Copa Holdings, S.A., 
made the following announcement:

        J.P. Morgan has been mandated by Copa Airlines to provide 
        Export-Import Bank of the United States (Ex-Im Bank) guaranteed 
        funding for five 737-800 aircraft scheduled to deliver in 2011. 
        The Facility, totaling US$178.5 million, includes 12-year 
        financing terms at very competitive rates and will finance all 
        direct Boeing purchases scheduled for delivery to Copa Airlines 
        in 2011. J.P. Morgan will act as the sole arranger and facility 
        agent for the Term Loan Facility, which is available on 
        delivery of the Aircraft on either a floating or fixed rate 
        basis. COPA will also have the option to effect a conversion, 
        subject to Ex-Im Bank's approval, of the floating rate term 
        facility into a fixed rate term facility. ``We are very pleased 
        with J.P. Morgan's support in securing our 2011 aircraft 
        financing needs under very competitive terms. These five 737-
        800s will play an important role in our future growth plans,'' 
        commented Victor Vial, CFO of Copa Holdings.

    Similarly, on October 8, 2009, Dubai-based Emirates Airline 
announced:

        the successful pricing of its inaugural U.S. bond offering 
        guaranteed by the Export Import Bank of the United States . . . 
        related to a loan facility secured for three new Boeing 777-
        300ER aircraft. The transaction is in the amount of US$413.7m 
        with a fixed rate coupon of 3.465 percent per annum. The 
        secured notes are due 21 August 2021 and are payable in 
        installments of principal and interest on a quarterly basis.

    Ironically, this type of information is not available from the 
Export-Import Bank itself. It is, in fact, extraordinarily difficult to 
find the most basic, nonproprietary information about the transactions 
for which the Bank issues billions of dollars of U.S. Government 
guarantees.
    In April 2010, the Office of Management and Budget (OMB) issued a 
directive to Federal agencies explaining the Administration's 
requirements for financial disclosures. OMB stated:

        [T]ransparency is a cornerstone of an open Government. This 
        Administration is committed to making Federal expenditures of 
        taxpayer dollars transparent to the public by providing readily 
        accessible, complete, accurate, and usable Federal spending 
        data. [Office of Management and Budget, Executive Office of the 
        President, Memorandum for Senior Accountable Officials Over the 
        Quality of Federal Spending Information (2010).]

    ATA fully supports that commitment, and believes that a 
reauthorization of the Export-Import Bank should require greater 
transparency concerning what remains by far its largest sector of 
activity.
    Specifically, ATA urges that legislation require the Bank, for each 
guarantee, promptly to disclose the following information regarding 
every financing involving large civil aircraft:

  <bullet>  The number and model of aircraft

  <bullet>  The repayment term

  <bullet>  The authorization amount

  <bullet>  The export value

  <bullet>  The interest rate

  <bullet>  Export-Import Bank Fees

    This basic information would permit taxpayers to understand better 
the Bank's commitments of public funds. In fact, much of this 
information is already disclosed to the public in some form, either by 
the Bank itself or elsewhere (as demonstrated in the press releases 
quoted above). The Bank's disclosures, however, are reported 
inconsistently, and in such disjointed fashion that they are difficult 
to understand. \2\ In fact, the Bank reports less today in its annual 
reports than it did previously.
---------------------------------------------------------------------------
     \2\ The Bank reports ``Ex-Im Bank Authorizations'' by fiscal year 
(see, e.g., ``Ex-Im Bank Authorizations for FY2008'', available at 
http://www.exim.gov/open/datasets/EXIM_AUTH_2008.csv). This data set 
includes both the authorization amount and export value for particular 
loans. The data set, however, does not report the recipient, 
recipient's country or repayment term. The recipient information may be 
obtained through a different compilation of transaction details, 
accessible through USASpending.gov. (See, Export-Import Bank of the 
United States, Freedom of Information Act, http://www.exim.gov/about/
disclosure/foia.cfm#fr.)
---------------------------------------------------------------------------
    ATA believes that the Bank should provide greater advance notice of 
proposals to its Board to approve financing transactions involving 
large civil aircraft, and prompt notice of approvals following Board 
action. Currently, agendas of Board meetings are generally published 2 
days in advance. Minutes containing little information about 
transactions are published afterwards.
Conclusion
    Current proposals to reauthorize the Export-Import Bank would raise 
the cap on the Bank's outstanding loans, guarantees, and insurance to 
$160 billion, up from $100 billion currently. If the percentage of the 
Bank's exposure to the airline transportation sector continued to 
remain at 47 percent of its total exposure, then the proposed new cap 
on its exposure limit implies a potential doubling in outstanding 
guarantees for large-civil-aircraft sales, to as much as $75 billion. 
This level of exposure--or even something significantly less--
represents sales of hundreds of new aircraft on subsidized terms to the 
competitors of U.S. airlines.
    The adverse impact of the Bank's financing of U.S. airline 
competitors is not new to Congress. In connection with the Bank's 
reauthorization in 1986, this Committee, under the leadership of 
Senators Armstrong and Proxmire, sponsored an amendment designed to 
ensure that the Bank considered potential adverse economic impacts of 
proposed transactions, specifically including in the aircraft sector. 
In its report on the Export-Import Bank Act Amendments of 1986, the 
Committee wrote:

        The current provisions of section 1911 of the Export-Import 
        Bank Act Amendments of 1978 require that the Bank consider the 
        potential adverse impact that any Eximbank loan or financial 
        guarantee is likely to have on domestic industries or 
        employment. As part of this consideration, the Bank has 
        implemented procedures to gather information on potentially 
        affected parties.

        However, the Committee has found that these procedures have not 
        been employed regularly or rigorously. This has resulted in 
        Board approval of a loan or guarantee without adequately 
        considering the views of parties likely to be affected. A 
        particularly visible example of this occurred in 1983, when the 
        Bank offered a guarantee to support Singapore Airlines' 
        purchase of Boeing 747 aircraft. A U.S. competitor of Singapore 
        Airlines, Pan American Airways, felt that it was adversely 
        impacted by this support, yet it was not consulted by Eximbank, 
        and the Board gave only cursory attention to this statutory 
        consideration.

        The bill strengthens the directive to the Bank to consider the 
        views of domestic parties who may be substantially adversely 
        affected by the Eximbank loan or guarantee. The Bank is further 
        directed to address these views in writing so that the Board of 
        Directors may formally review this material before making a 
        decision on the transaction. The intent of this amendment is to 
        ensure that Eximbank more rigorously implements its existing 
        procedures and the already existing requirements of the law.

    S. Rep. No. 99-273, at 8-9 (1986). During the floor debate of the 
1986 Amendments, Senator Armstrong raised the Singapore Air example:

        In 1983, the Bank sought to provide $254 million in direct 
        credit and $426 million in financial guarantees to Singapore 
        Airlines for the purchase of four new Boeing 757's and six new 
        Boeing 747's, plus the spare parts.

        It should be noted by the way, that Singapore Airlines is owned 
        98.2 percent by the Government of Singapore, which gives it 
        some advantage, as you might imagine, over its direct 
        competitors, particularly American-based Pan Am.

        I bring this up because one element for reform contained in 
        this bill, primarily at the leadership of the Senator from 
        Wisconsin [Mr. Proxmire], is contained, I think, in section 112 
        of this bill, or it is one of the sections, which literally 
        will now require the Eximbank to take into consideration not 
        only the positive effect of its action but also potential 
        damage to the U.S. economy.

    132 Cong. Rec. S9361 (daily ed. July 21, 1986) (statement of 
Senator Armstrong). Twenty-five years later, so far as ATA is aware, 
the Bank has never once taken into consideration the potential damage 
to the U.S. airline industry of its support for aircraft sales. \3\
---------------------------------------------------------------------------
     \3\ In fact, as reported by the Bank's Inspector General, the Bank 
only rarely conducts economic impact analyses for transactions 
involving any industry. Evaluation Report Relating to Economic Impact 
Procedures, OIG-EV-10-03, September 17, 2010.
---------------------------------------------------------------------------
    U.S. airlines face far more competition from foreign airlines for 
U.S. traffic than in 1986. It is thus ever more critical for the 
Congress and the Administration to understand the full prospective 
consequences of the proposed massive increases in Export-Import Bank 
funding, and not to take steps that will worsen what is, at best, 
already a zero-sum game of supporting one U.S. industry at the expense 
of another. Ultimately, continued vigorous U.S. leadership among the 
ASU participants and elsewhere will be essential to relieve exporters' 
calls on the U.S. Government's credit and to restore a level playing 
field for the U.S. airline industry.
Attachment 1: ATA Letter to Secretary of the Treasury Geithner, August 
                                16, 2010

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Attachment 2: Ex-Im Bank and ECGD Financing of Boeing and Airbus 
                                Exports
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
